<html>
<title> - THE NATIONAL AERONAUTICS AND SPACE ADMINISTRATION'S FISCAL YEAR 2012 BUDGET REQUEST</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                   THE NATIONAL AERONAUTICS AND SPACE
                   ADMINISTRATION'S FISCAL YEAR 2012
                             BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 2, 2011

                               __________

                            Serial No. 112-3

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
65-048                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0265726d42617771766a676e722c616d6f2c">[email&#160;protected]</a>  

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

               HON. STEVEN M. PALAZZO, Mississippi, Chair
F. JAMES SENSENBRENNER JR.,          GABRIELLE GIFFORDS, Arizona
    Wisconsin                        MARCIA L. FUDGE, Ohio
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
DANA ROHRABACHER, California         TERRI A. SEWELL, Alabama
FRANK D. LUCAS, Oklahoma             DAVID WU, Oregon
W. TODD AKIN, Missouri               DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             FREDERICA S. WILSON, Florida
SANDY ADAMS, Florida                     
E. SCOTT RIGELL, Virginia                
MO BROOKS, Alabama                       
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas


                            C O N T E N T S

                            Date of Hearing

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    10
    Written Statement............................................    11

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    12
    Written Statement............................................    14

                                Witness:

The Honorable Charles F. Bolden, Jr., Administrator, National 
  Aeronautics and Space Administration
    Oral Statement...............................................    16
    Written Statement............................................    18

Discussion.......................................................    30

             Appendix I: Answers to Post-Hearing Questions

The Honorable Charles F. Bolden, Jr., Administrator, National 
  Aeronautics and Space Administration...........................    66

            Appendix II: Additional Material for the Record

Submitted Statement by Representative Jerry Costello, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    96

Submitted Statement by Representative Randy Neugebauer, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    97


          THE NATIONAL AERONAUTICS AND SPACE ADMINISTRATION'S
                    FISCAL YEAR 2012 BUDGET REQUEST

                              ----------                              


                        WEDNESDAY, MARCH 2, 2011

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph M. Hall 
[Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                     U.S. HOUSE OF REPRESENTATIVES

           A Review of the Federal Aviation Administration's

                    Research and Development Program

                      wednesday, february 16, 2011
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    The purpose of the Committee hearing is to review the 
Administration's FY 2012 budget request for the National Aeronautics 
and Space Administration and examine its priorities and challenges.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Witness

The Honorable Charles F. Bolden, Jr., Administrator, National 
Aeronautics and Space Administration

Background

Agency Overview
    NASA is the nation's primary civilian space and aeronautics 
research and development agency, carrying out a diverse set of missions 
and projects designed to expand our understanding of Earth, the Solar 
System, and the universe. NASA operates the Space Shuttle fleet, the 
International Space Station, and a number of satellites in orbit around 
Earth and throughout the solar system. It also undertakes activities in 
technology development and transfer, education, outreach, and 
participates in a number of interagency initiatives such as 
nanotechnology, information technology, climate change research, and 
the Next Generation Air Transportation (NextGen) program.
    NASA was established by the National Aeronautics and Space Act of 
1958 (P.L. 85-568) and was formed by merging the National Advisory 
Committee on Aeronautics (NACA) with selected space and aeronautics 
research projects from the defense department. In its first year, 
President Eisenhower requested $125 million for NASA. Today, the 
agency's budget is more than $18.7 billion (less than half of one 
percent of the federal budget), with about 83 percent of the total 
budget paid to commercial entities on a contract basis. NASA employs 
about 18,300 full time equivalent civil servants and another 43,000 
contractors. In addition to its headquarters office in Washington, DC, 
NASA has nine field centers:

        <bullet>  Ames Research Center, Mountain View, CA

        <bullet>  Dryden Flight Research Center, Edwards Air Force 
        Base, CA

        <bullet>  Glenn Research Center, Cleveland, OH

        <bullet>  Goddard Space Flight Center, Greenbelt, MD

        <bullet>  Johnson Space Center, Houston, TX

        <bullet>  Kennedy Space Center, Merritt Island, FL

        <bullet>  Langley Research Center, Hampton, VA

        <bullet>  Marshall Space Flight Center, Huntsville, AL

        <bullet>  Stennis Space Center, Bay St. Louis, MS

    The Jet Propulsion Laboratory, located in Pasadena, CA, is a NASA-
sponsored federally funded research and development center. NASA also 
owns the Wallops Flight Facility in Wallops Island, Virginia and the 
Michoud Assembly Facility east of New Orleans, Louisiana.

FY2012 Budget Request

    NASA's budget request for FY 2012 is $18.7 billion, the same amount 
appropriated by Congress for FY 2010 and continued thus far in FY 2011. 
The budget request also displays the succeeding four out-year budget 
assumptions (FY2013 - FY2016) to give Congress an indication of near-
term spending plans for programs, projects and activities. The FY 2012 
budget request assumes the same topline spending level through FY2016, 
but unlike previous budgets, NASA's FY2012 request qualified their out-
year assumptions as `notional.' However, NASA's `notional' assumptions 
are significantly higher than those in OMB's FY2012 agency request 
(OMB's Blue Books) by an aggregate of $2.33 Billion. In spite of this 
significant difference, NASA officials advised the Committee that they 
are using their higher out-year assumptions for planning purposes.

NASA is proposing to modify its current account structure in two ways: 
                    (1) to divide ``Aeronautics and Space Technology'' 
                    into separate accounts; and (2) merge the ``Space 
                    Operations'' and ``Exploration Systems'' 
                    Directorates into one account. The latter may occur 
                    by this summer.

Key Highlights and Programs from the FY2012 Budget Proposal

    Earth Science. NASA's Earth Science programs seek approaches for 
providing sustained, simultaneous spaceborne climate measurements to 
advance knowledge of the Earth's atmosphere, oceans, sea ice, land 
surfaces, and the interaction of these elements in the ecosystem, 
including the impact of humans. Key elements include flight programs to 
develop satellite observation missions; research analysis to understand 
the flight data; developing technologies for new measurement 
approaches; and advancing the use of Earth science measurements to 
inform environmental policy decisions.

        <bullet>  Compared to last year's budget, the FY2012 Earth 
        Sciences request - $1,797.4 million - is $4.4 million less, a 
        decrease of 0.2%.

        <bullet>  NASA operates 13 satellite missions making global 
        observations and has seven missions in formulation or under 
        development, with Glory, Aquarius, and NPOESS Preparatory 
        Project (NPP) scheduled for launch in 2011.

        <bullet>  Delays start of the DESDynI and CLARREO missions.

    Astrophysics. NASA's Astrophysics programs seek to discover how 
matter, energy, space and time behave under the extraordinary range of 
conditions within our universe; explore how the universe began and 
evolved; and characterize planetary systems orbiting other stars in a 
search for Earth-like planets. NASA operates 13 satellite missions 
including the Hubble Space Telescope, which has taken hundreds of 
thousands of astronomical images shedding light on many of the greatest 
mysteries of astronomy.

        <bullet>  Compared to last year's budget, the FY2012 
        Astrophysics request - $682.7 million - is $51.2 million 
        higher, an 8.1% increase.

        <bullet>  NASA's successor to the Hubble Space Telescope is the 
        James Webb Space Telescope (JWST). Last year, an external 
        review panel determined that JWST will require up to $1.5 
        billion in additional funding and at least another year before 
        it will be ready for launch. In an effort to get the cost and 
        schedule growth under control, JWST's program and project 
        management was moved out of the Astrophysics management 
        structure. NASA is currently conducting a `bottoms-up' review 
        to establish a new cost and schedule baseline that will be 
        reflected in next year's budget request. The FY2012 budget 
        request reduces JWST funding, ensuring that it will not meet 
        the current launch date of 2014.

    Planetary Science. NASA's Planetary Science program conducts 
robotic missions throughout our solar system to answer fundamental 
questions about its origins and evolution. Planetary science data 
supports NASA's longer term human exploration agenda including the use 
of robotic Mars rovers, (i.e. Spirit and Opportunity), and orbiters, 
(i.e., Odyssey and Mars Reconnaissance Orbiter) to map water and 
minerals on or near Mars surface. NASA's Near Earth Observation (NEO) 
program hunts for asteroids that are potential impact hazards to Earth.

        <bullet>  Compared to last year's budget, the FY2012 Planetary 
        Science request - $1540.7 million - is $55 million higher, a 
        3.7% increase.

        <bullet>  NASA and the European Space Agency have established a 
        joint program office to coordinate future Mars missions 
        beginning in 2016.

        <bullet>  Higher launch vehicle costs is severely impacting 
        program, leading to reduced number of launches-per-decade 
        unless lower-cost launchers become available.

    Heliophysics. Heliophysics seeks to understand the Sun and its 
impact on the Earth's magnetosphere, ionosphere, and atmosphere. The 
extended solar environment extends beyond the orbit of Pluto, but here 
on Earth solar particles and fields effect high-altitude winds, radio 
and radar transmissions, the electrical power grid, and spacecraft 
electronics. NASA operates 14 heliophysics missions using 26 spacecraft 
including the Solar and Heliospheric Observatory (SOHO) and the Solar 
Terrestrial Relations Observatory (STEREO). Many Heliophysics missions 
have been extended beyond their original lifetimes, including the 
Voyager spacecraft launched in August 1977.

        <bullet>  Compared to last year's budget, the FY2012 
        Heliophysics request - $622.3 million - is 19.6 million less, a 
        3.1% decrease.

        <bullet>  The United States may have to eliminate one or more 
        instruments from the Solar Orbiter Collaboration - a joint 
        mission with the European Space Agency - due to the high cost 
        of a launch vehicle. Under the agreement, the US provides the 
        launcher and several of the instruments. The mission is being 
        led by the European Space Agency.
    Aeronautics Research. NASA's Aeronautics research programs provide 
direct and indirect benefit to the public. Fundamental research in 
traditional aeronautical disciplines and relevant emerging fields 
enable revolutionary changes which lead to a safer, more 
environmentally friendly and more efficient national air transportation 
system to benefit the flying public. Aeronautics research is conducted 
through five programs: Aviation Safety; Airspace Systems; Fundamental 
Aeronautics; Integrated Systems Research; and the Aeronautics Test 
Program. NASA's Aeronautics research is a significant contributor to 
the FAA's Next Generation Air Transportation System (NextGen) program.

        <bullet>  Compared to last year's budget, the FY2012 
        Aeronautics request - $569.4 million - is $10.2 million less, a 
        1.8% decrease.
    Space Technology. For FY2012, NASA is proposing to create a new 
budget line for Space Technology (in last year's budget request, it was 
combined with Aeronautics Research). The program consists of technology 
development and innovation projects that are broadly applicable to the 
Agency's future missions in science and exploration while providing 
space technologies that can improve the capabilities and lower the cost 
of other government agencies and commercial space activities. It is 
managed by the Office of Chief Technologist, who reports directly to 
the Administrator. Space Technology has three programs: Early Stage 
Innovation; Game Changing Technology; and Crosscutting Capability 
Demonstrations.

        <bullet>  Compared to last year's budget, the FY2012 Space 
        Technology request - $1,024.2 million - is $452 million higher, 
        a 79% increase. Note, however, that last year's request was 
        never enacted.

        <bullet>  The Space Technology program also absorbs existing 
        programs, including the Innovative Partnership Program, 
        portions of the Exploration Technology Program, and the Small 
        Business Innovative Research (SBIR)/Small Business Technology 
        Transfer (STTR) Programs.
    Exploration Systems and Human Spaceflight. See the section Human 
Space Flight and the NASA Authorization Act of 2010 below for a fuller 
explanation of changes and issues.
    Space Operations. The Space Operations Mission Directorate (SOMD) 
manages the Space Shuttle program; oversees the operation of the 
International Space Station, including payloads on the ISS; provides 
launch services for other NASA directorates, mainly for Space Science 
missions; manages the Space Communication and Navigation (SCaN) 
program, providing communications between Earth and missions in space 
(Shuttle, ISS, and deep space science missions); through the Human 
Space Flight Operations program, provides training for NASA astronauts 
and supports their health and safety; develops future space launch 
complex upgrades; and manages rocket testing capabilities through the 
Rocket Propulsion Test program.

        <bullet>  Compared to last year's budget, the FY2012 Space 
        Operations request - $4,346.9 million - is $540.9 million less, 
        an 11.1% decrease. This largely reflects the pending retirement 
        of Shuttle.

        <bullet>  STS-133 Space Shuttle Discovery is currently at the 
        International Space Station. NASA must safely fly the two 
        remaining Space Shuttle missions while preparing for the 
        Shuttle's retirement later this year.

        <bullet>  NASA will support utilization of the International 
        Space Station though at least 2020.

        <bullet>  The FY2012 budget request includes $548 million in 
        pension liability for the Shuttle's prime contractor United 
        Space Alliance.
    Education. NASA's education programs are designed to increase the 
number of students who are proficient in, and choose to major in, and 
pursue careers in STEM fields. NASA works through mutually beneficial 
relationship s with over 500 colleges and universities, hundreds of K-
12 schools and districts, and over 400 museums and science centers to 
provide education experiences.

        <bullet>  Compared to last year's budget, the FY2012 Education 
        request - $138.4 million - is $7.4 million less, a 5.1% 
        decrease.
    Cross Agency Support. Cross Agency Support (CAS) is comprised of 
two themes, Center Management and Operations, and Agency Management and 
Operations. Together they manage all nine NASA centers and their 
personnel; agency acquisitions; financial management; maintenance and 
operation of facilities; ensure safety and mission success; sustain 
Agency-wide critical capabilities; and information technology.

        <bullet>  Compared to last year's budget, the FY2012 CAS 
        request - $3,192.0 million - is $80.6 million higher, a 2.6% 
        increase.
    Construction and Environmental Compliance and Restoration. The 
Construction and Environmental Compliance and Restoration (CECR) 
account provides for design and execution of facility construction and 
revitalization projects, demolition projects, and environmental and 
restoration activities. The Environmental Compliance and Restoration 
program is to clean up pollutants from past activities.

        <bullet>  Compared to last year's budget, the FY2012 request - 
        $450.4 million - is $53.1 million higher, a 13.4% increase.

        <bullet>  The FY2012 request supports cleanup of the Santa 
        Susana Field Laboratory (CA), in preparation for dispositioning 
        the property.
    Inspector General. Supports auditors, investigators, and analysts 
to prevent and detect fraud, waste and abuse and mismanagement.

        <bullet>  Compared to last year's budget, the FY2012 request--
        $37.5 million--is $500 thousand higher, a 1.4% increase.

Human Space Flight and the NASA Authorization Act of 2010

    Last year Congress passed the NASA Authorization Act of 2010, which 
was signed by the President on October 11th (P.L.111-267). The Act 
provided policy guidance and recommended funding levels agreed to by 
the Congress. Yet the Administration's FY2012 budget request diverges 
significantly from the Authorization Act in a number of ways in the 
area of human spaceflight. Much of the Act was in direct response to 
the Administration's FY2011 request to cancel development of the 
Constellation Program (consisting of a new launch system, Ares 1 and 
Ares 5; and the Orion crew capsule) as the successor to the Space 
Shuttle, which will be retired from service later this year.
    In lieu of Constellation, the Administration's FY2011 budget sought 
$6 billion to fund development of multiple commercial crew transport 
services (three or four, according to NASA), arguing that emerging 
commercial companies had the capability to safely design, build and 
operate launch systems and crew capsules to carry astronauts to and 
from low-Earth orbit. Despite repeated requests by the Committee 
throughout 2010, NASA failed to provide a credible plan or the basis 
for its $6 billion estimate to Congress. As a result, Congress in its 
2010 NASA Authorization Act strongly disagreed with the 
Administration's proposal.
    Instead, the Act provided $10.8 billion (through 2013) for 
continued development of a Shuttle- and Constellation-derived launch 
system (newly designated the Space Launch System and Multi-Purpose Crew 
Vehicle) that would assure a backup capability to access the 
International Space Station for the U.S. and our international partners 
in case commercial proposals fail to materialize. The Act also directed 
NASA to proceed immediately with its development with the goal of 
making the system operational by 2016.
    The Space Launch System (SLS) and Multi-Purpose Crew Vehicle (MPCV) 
were to continue to focus on developing the advanced human safety 
features of the Orion project, and be capable of evolving into a heavy 
lift launch system that could eventually carry 130 tons to orbit to 
enable human exploration missions beyond Earth orbit. Congress 
envisioned that the SLS and MPCV would get maximum benefit from the 
more than $10.3 billion that had previously been spent on the 
Constellation system. During the previous 18 months, major 
Constellation components achieved a number of milestones including 
successful flight tests of the Ares 1-X and the Orion launch abort 
systems, and a ground demonstration of a five-segment solid rocket 
motor that was to have powered the Ares 1.
    In the area of commercial crew the Authorization Act provided $1.3 
billion over three years to ``continue or expand activities and 
agreements initiated in FY2010 that reduce risk, develop technologies, 
and lead to other advancements that will help determine the most 
effective and efficient means of advancing the development of 
commercial crew services.''
    The following table compares the policy and funding guidance that 
Congress established in the NASA Authorization Act with the 
Administration's FY2012 budget request. Over the next two years (FY2012 
- FY2013) the Administration's request underfunds development of the 
Multi-Purpose Crew Vehicle and Space Launch System/Heavy Lift Launch 
Vehicle by more than $2.4 billion, a 31 percent decline. In the area of 
Commercial Spaceflight the Administration significantly augmented 
amounts already authorized for commercial Cargo Resupply Services and 
Commercial Crew.
    Although NASA is seeking to fund development of multiple commercial 
crew systems, NASA will not own the systems and will shoulder 
additional costs to "rent seats" on a per mission basis. NASA has 
inserted a new line in the FY2012 budget called Mission Operations 
Sustainment that will be used to pay the per seat rental if and when a 
new commercial crew industry has been established. Despite repeated 
requests to NASA to provide the cost basis or assumptions used to 
estimate the future cost for commercial seat rental, NASA did not 
provide that information to the Committee. As a result the table below 
assumes that $415 million requested in FY2013 will be necessary for 
seat rentals, which is roughly similar to the cost to rent seats on the 
Russian Soyuz.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Last year NASA used $50 million from the American Recovery and 
Reinvestment Act to fund five study proposals called Commercial Crew 
Development (CCDev 2). NASA initiated a second request for proposals 
(CCDev 2) and plans to award funding once the FY2011 appropriation is 
finalized. CCDev 2 currently has no budget allocation so these funds 
will further reduce the amount available for Human Exploration 
Capabilities but is not reflected in the above chart.
    Chairman Hall. All right. The Committee on Science, Space 
and Technology will come to order, and I say to you good 
morning and thank you for being here. Charlie, I think it is a 
good morning. I know you are a good guy and likeable and 
admired hero, and for some of the things I say about the 
Administration, I am not talking about you directly. But you 
are a big guy, and I know you are going to handle it.
    I welcome all of you here to the hearing entitled the 
National Aeronautics and Space Administration Fiscal Year 2012 
Budget Request. In front of you are packets containing the 
written testimony, biography and Truth in Testimony Disclosure 
for today's witness, Administrator Charles F. Bolden.
    I recognize myself for five minutes for an opening 
statement.
    I want to thank Administrator Bolden for appearing before 
our Committee today. There are a number of significant issues 
facing our Nation's space program, and I look forward to a 
frank and open discussion on the issues.
    I am concerned that the future of our space program is in 
very serious jeopardy and has been since the President ran a 
line through the word Constellation. With the retirement of the 
Space Shuttle, NASA faces a critical period and needs to focus 
its limited resources to sustain our leadership in space.
    As everyone knows we are in a challenging budget 
environment. In times like these it is more important than ever 
for NASA to have credible, realistic plans that can be 
understood and can be defended. It must execute the programs it 
has with efficiency and thrift and work closely, I think, with 
the Congress to abide by congressional legislation. It is my 
personal opinion that someone over at the White House seems to 
have very little interest in working with the Congress. The 
President made a speech to the Nation just last January told 
all of us that we had not only to work together, and that is a 
good speech, we should work together, that we even had to sit 
together that night. His speech was great. It was just two 
years too late. When the speech was shorter two years ago, I 
counted the words in the January speech, 5,602 words. Two years 
ago the words seemed to have narrowed down to two words, we 
won, with no real cooperation sought from the Republican side.
    In the area of human spaceflight, I am concerned about 
having assured access to the International Space Station for 
the United States and our international partners so it can live 
up to its promise as a vital research laboratory. That is why 
Congress several years ago authorized a follow-on system called 
Constellation. The Constellation program was guided by the 
safety recommendations of the Columbia Accident Investigation 
Board. Its goals and designs were well understood and endorsed 
by successive Republican and Democratic Congressmen working 
together. I am sure you have heard that from many of us.
    Yet last year the President, without warning, cancelled 
Constellation in favor of a commercial crew proposal that 
assumed spending at least $6 billion over five years on the 
development and demonstration of up to three or four privately 
owned and operated commercial crew systems with no or very few 
details.
    Despite repeated requests from former Chairman Gordon and 
myself, NASA never provided the basis for its cost estimates or 
a credible plan showing how the needs of the United States and 
our international partners could be met at a lower cost or on a 
faster development cycle than Constellation.
    So last year, after intense and often contentious debate 
Congress passed the NASA Authorization Act of 2010. The bill 
was a product of compromise, and no one got everything they 
wanted. But the Act contained policy elements and funding 
guidelines that could allow the space program to move forward.
    Specifically the Act provided $10.8 billion over three 
years for the newly-designated Multi-Purpose Crew Vehicle and 
Space Launch System to assure the capability to supply and 
support the International Space Station for the United States 
and our international partners in case commercial proposals 
fail to materialize.
    The Act also urged NASA to capitalize on investments 
already made in the Constellation program in order to save 
money, maintain a skilled workforce and minimize further 
development delays.
    With regard to Commercial Crew, the Act authorized $1.3 
billion over three years for activities that, as the 
authorization bill states, ``reduce risk, develop technologies, 
and lead to advancements that will help determine the most 
effective and efficient means of advancing the development of 
commercial crew services.'' Commercial crew was not ignored, 
but to be perfectly clear, it was not and is not Congress' 
first priority. Our first priority is to continue with the 
development of the Space Launch System and Multi-Purpose Crew 
Vehicle.
    Yet the Administration's fiscal year 2012 budget proposal 
completely flips the priorities of the Act, significantly 
increasing Commercial Crew funding while making deep cuts to 
the Human Exploration Capabilities accounts which Congress 
clearly intended to serve as our assured access to space.
    Members of this Committee have been some of NASA's most 
ardent supporters in the House, and we take the NASA 
Authorization Act, all of us take it very seriously. We expect 
NASA to make good faith efforts to abide by the policy 
direction and funding limitations in the law and to cease its 
efforts to delay resumption of full development of an assured 
access system. The new budget proposal disregards, yes, 
ignores, our authorization law.
    Knowing that we face a very difficult budget environment 
for years to come, it is more important than ever that NASA 
have credible plans, execute them well, and work closely with 
Congress to abide by the legislative direction.
    We would like to work together with you to maintain our 
human spaceflight program.
    In order to do this, NASA should embrace the policy 
direction that has been agreed to, which would help reduce the 
surprise, frustration and anger from those who have been your 
greatest supporters.
    [The prepared statement of Mr. Hall follows:]

               Prepared Statement of Chairman Ralph Hall

    I want to thank Administrator Bolden for appearing before our 
Committee today. There are a number of significant issues facing our 
nation's space program, and I look forward to a frank and open 
discussion on the issues.
    I am concerned that the future of our space program is in serious 
jeopardy. With the retirement of the Space Shuttle, NASA faces a 
critical period and needs to focus its limited resources to sustain our 
leadership in space.
    As everyone knows we are in a challenging budget environment. In 
times like these it is more important than ever for NASA to have 
credible, realistic plans that can be understood and defended. It must 
execute the programs it has with efficiency and thrift, and work 
closely with the Congress to abide by legislation.
    In the area of human spaceflight, I am concerned about having 
assured access to the International Space Station for the U.S. and our 
international partners so it can live up to its promise as vital 
research laboratory. That is why Congress, several years ago, 
authorized a follow-on system called Constellation. The Constellation 
program was guided by the safety recommendations of the Columbia 
Accident Investigation Board. Its goals and design were well understood 
and endorsed by successive Republican and Democratic Congresses.
    Yet last year the Administration, without warning, cancelled 
Constellation in favor of a commercial crew proposal that assumed 
spending at least $6 billion over five years on the development and 
demonstration of up to 3 or 4 privately owned and operated commercial 
crew systems.
    Despite repeated requests from former Chairman Gordon and myself, 
NASA never provided the basis for its cost estimates or a credible plan 
showing how the needs of the U.S. and our international partners could 
be met at a lower cost or on a faster development cycle than 
Constellation.
    So last year, after intense and often contentious debate Congress 
passed the NASA Authorization Act of 2010. The bill was a product of 
compromise, and no one got everything they wanted. But the Act 
contained policy elements and funding guidelines that could allow the 
space program to move forward.
    Specifically the Act provided $10.8 billion over three years for 
the newly-designated Multi Purpose Crew Vehicle and Space Launch System 
to assure the capability to supply and support the International Space 
Station for the U.S. and our international partners in case commercial 
proposals fail to materialize.
    The Act also urged NASA to capitalize on investments already made 
in the Constellation programs in order to save money, maintain a 
skilled workforce, and minimize further development delays.
    With regard to Commercial Crew, the Act authorized $1.3 billion 
over three years for activities that ``reduce risk, develop 
technologies, and lead to advancements that will help determine the 
most effective and efficient means of advancing the development of 
commercial crew services.''
    Commercial crew was not ignored, but to be perfectly clear, it was 
not - and is not - Congress' first priority.
    Yet the Administration's FY2012 budget proposal completely flips 
the priorities of the Act, significantly increasing Commercial Crew 
funding while making deep cuts to the Human Exploration Capabilities 
accounts which Congress clearly intended to serve as our assured access 
to space.
    Members of this Committee have been some of NASA's most ardent 
supporters in the House and we take the NASA Authorization Act very 
seriously. We expect NASA to make good faith efforts to abide by the 
policy direction and funding limitations in the law, and to cease its 
efforts to delay resumption of full development of an assured access 
system.
    Knowing that we face a very difficult budget environment for years 
to come, it is more important than ever that NASA have credible plans, 
execute them well, and work closely with Congress to abide by 
legislative direction.
    We want to work together with you to maintain our human spaceflight 
program.
    In order to do this, NASA should embrace the policy direction that 
has been agreed to, which would help reduce the surprise, frustration 
and anger from those who have been your greatest supporters.

    Chairman Hall. I now recognize Mrs. Johnson for her opening 
remarks.
    Ms. Johnson. Thank you very much, Mr. Chairman. Welcome 
back to the Committee, Administrator Bolden.
    I want to congratulate you and your agency on STS-133, and 
I understand that the mission has been very productive to date, 
and I look forward to the crew's safe return to Earth next 
week.
    I had another appointment, so I missed it, and I kept 
telling the people going, I might not miss it because it might 
not go up that day but it did.
    Today is the Congress' first opportunity to review the 
President's fiscal year 2012 budget request for NASA. This 
budget request is coming over in a very challenging budgetary 
environment with the appropriations for fiscal year 2011 still 
undecided even though we are now 5 months into that year. I can 
only imagine the challenges that you are facing in trying to 
plan and carry out the challenging activities that the nation 
has asked you to undertake when the budgetary sands keep 
shifting.
    I hope that we are able to resolve our current 
appropriations impasse soon, but I also hope that an agreement 
doesn't come at the expense of critical investments this Nation 
needs to make to prepare for the future. I consider NASA to be 
one of those critical investments.
    One only has to look at all the advances, new technologies 
and inspiration that NASA has delivered over the years to 
realize that the people of NASA are one of our Nation's vital 
resources and we need to support them and their important 
missions in space and Earth science, aeronautics and human 
spaceflight and exploration. I could spend my entire time 
listing just some of the fruits of our past investments in NASA 
that have become embedded in our daily lives whether they be as 
broad in scope as global satellite communications or as 
specific as smoke detectors, cordless power tools, digital 
mammography, body imaging and firefighter breathing systems.
    Other nations increasingly are recognizing the benefits a 
strong and active space program can deliver, and as a result, 
we see them being willing to make the necessary investments to 
build their space capabilities. However, I am worried that we 
here in America are forgetting how important these R&D 
investments are to our future and how critical this skilled 
workforce is to our future competitiveness.
    I am a great admirer of you, Mr. Bolden, and the 
inspirational leadership that you bring to NASA. I am also a 
supporter of the President who wishes you to be successful in 
this policy initiative. However, I have to say that I am 
disappointed in the budget request that is before us today, 
especially in light of all the work that Congress undertook 
last year to forge a constructive path forward for the Nation's 
space program.
    While last year's Authorization Act was by no means a 
perfect bill, it did clearly articulate Congress' intent that 
NASA pursue a meaningful human spaceflight and exploration 
program that builds on all the work that has been done over the 
past five years. I had thought the Administration agreed with 
the compromise that was enacted into law, but I am afraid I do 
not see it reflected in the proposed NASA budget request. The 
request cuts NASA's overall budget plan and its human 
exploration budget even further than before, delays the 
development of the next generation vehicles and eliminates any 
concrete destinations or milestones beyond the International 
Space Station.
    This is an unfortunate situation for a number of reasons, 
but its most damaging impact will be on both our existing, 
highly skilled workforce and on the young people who are 
inspired by NASA to dream of careers in science and technology. 
The start-stop approach to finding funding goals that we have 
seen over the past several years can only cause us to lose the 
best and brightest of both groups, and they will never be 
replaced. It will not be easy. We are really not getting them 
ready, so we cannot afford to lose the ones we have.
    I know that you have great sympathy for the budget and the 
pressures that NASA is facing, as do we. That is why I am 
hoping and expecting that the Administration would provide some 
constancy of funding and direction to the Agency, and I am 
afraid that I don't see it in the budget that has been 
submitted to Congress.
    So where do we go from here? I think that the most 
constructive approach for all of us here is to consider the 
budget request that you will present today as the beginning of 
a discussion, not the end. We are going to need you to tell us 
what you can do with your budget, not what you can't do. We 
need to know about spaceflight goals that have been set forth 
in successive NASA authorization acts. We want to know what is 
possible. We need to know not just what you cannot do. Make no 
mistake about it. This is a critical period for NASA. Our 
leadership and preeminence in space and aeronautics is at 
stake. Resting on our laurels from prior accomplishments is not 
an option. Sustained investments in research, technology and 
development must be made, not just for our sake, but for our 
Nation's sake. Without this sustained investment in the years 
ahead, NASA will be hard-pressed to foster the innovation 
needed to inspire young generations to pursue scientific and 
technical careers, and that would be a bad sign for our Nation.
    I want to work with you, Administrator Bolden, and with 
Chairman Hall to ensure that NASA continues to instill pride 
and to inspire by pushing back the frontiers of knowledge 
through exploring and living in space, advancing science and 
engineering and developing innovative technologies.
    I want to again welcome you, and I hope that we can work 
together to see that we have a more positive NASA program. I 
yield back. Thank you, Mr. Chairman.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Ranking Member Eddie Bernice Johnson
    Thank you Chairman Hall, and welcome back to the Committee, 
Administrator Bolden. I want to congratulate you and your agency on the 
successful launch of STS-133. I understand that the mission has been 
very productive to date, and I look forward to the crew's safe return 
to Earth next week.
    Today is the Congress's first opportunity to review the president's 
Fiscal Year 2012 budget request for NASA. This budget request is coming 
over in a very challenging budgetary environment, with the 
appropriations for FY 2011 still undecided even though we are now five 
months into that year. I can only imagine the challenges you are 
facing, Mr. Administrator, in trying to plan and carry out the 
challenging activities that the nation has asked you to undertake when 
the budgetary sands keep shifting under you.
    I hope that we are able to resolve our current appropriations 
impasse soon, but I also hope that an agreement doesn't come at the 
expense of the critical investments this nation needs to make to 
prepare for the future. I consider NASA to be one of those critical 
investments.
    One only has to look at all of the advances, new technologies, and 
inspiration that NASA has delivered over the years to realize that the 
people of NASA are one of our nation's vital resources, and we need to 
support them and their important missions in space and Earth science, 
aeronautics, and human space flight and exploration. I could spend my 
entire time today listing just some of the fruits of our past 
investments in NASA that have become embedded in our daily life, 
whether they be as broad in scope as global satellite communications or 
as specific as smoke detectors, cordless power tools, digital 
mammography, body imaging, and firefighter breathing systems.
    Other nations increasingly are recognizing the benefits a strong 
and active space program can deliver, and as a result we see them being 
willing to make the necessary investments to build their space 
capabilities. However, I am worried that we here in America are 
forgetting how important these R&D investments are to our future, and 
how critical this .skilled workforce is to our future competitiveness.
    Mr. Bolden, I am a great admirer of you and the inspirational 
leadership you bring to NASA I am also a supporter of the president who 
wishes him to be successful in his policy initiatives. However, I have 
to say that I am disappointed in the budget request that is before us 
today, especially in light of all the work that Congress undertook last 
year to forge a constructive path forward for the nation's space 
program.
    While last year's Authorization Act was by no means a perfect bill, 
it did clearly articulate Congress's intent that NASA pursue a 
meaningful human space flight and exploration program that builds on 
all of the work that has been done over the past five years. I had 
thought that the Administration agreed with the compromise that was 
enacted into law, but I am afraid that I do not see it reflected in the 
proposed NASA budget request. The request cuts NASA's overall budget 
plan and its human exploration budget even further than before, delays 
the development of the next generation vehicles, and eliminates any 
concrete destinations or milestones beyond the International Space 
Station.
    That is an unfortunate situation for a number of reasons, but its 
most damaging impact will be on both our existing highly skilled 
workforce and on the young people who have been inspired by NASA to 
dream of careers in science and technology. The start-stop approach to 
funding and goals that we have seen over the past several years can 
only cause us to lose the best and brightest of both groups, and they 
are not going to be easily replaced.
    Mr. Bolden, you know that I have great sympathy for the budgetary 
and other pressures NASA is facing. That is why I was hoping and 
expecting that the Administration would provide some constancy of 
funding and direction to the agency, but I'm afraid that I don't see it 
in the budget that has been submitted to Congress.
    So where do we go from here? I think that the most constructive 
approach for all of us here is to consider the budget request that you 
will present today as the beginning of the discussion, not the end. We 
are going to need you to tell us what you can do with your budget to 
meet the human spaceflight goals that have been set forth in successive 
NASA Authorization Acts-not simply tell us what you can't do. And if 
additional resources are needed to realize those goals, we need to know 
that too.
    Make no mistake about it, this is a critical period for NASA. Our 
leadership and preeminence in space and aeronautics is at stake. 
Resting on our laurels from prior accomplishments is not an option. 
Sustained investments in research, technology, and development must be 
made. Without this sustained investment in the years ahead, NASA will 
be hard-pressed to foster innovation needed to inspire our younger 
generations to pursue scientific and technical careers. That would be a 
shame.
    I want to work with you, Administrator Bolden, and you, Chairman 
Hall, to ensure that NASA continues to instill pride and to inspire by 
pushing back the frontiers of knowledge through exploring and living in 
space, advancing science and engineering, and developing innovative 
technologies.
    With that, I again want to welcome you to today's hearing, 
Administrator Bolden, and I yield back the balance of my time.

    Chairman Hall. Thank you, Ms. Johnson, for a great opening 
statement, and if there are Members who wish to submit 
additional opening statements, your statements will be added to 
the record at this point.
    Chairman Hall. At this time I would like to and am proud to 
introduce the witness. Charles F. Bolden Jr., was appointed 
NASA Administrator by President Obama and was sworn in on July 
17, 2009. He is an astronaut, having flown on four Shuttle 
missions, including the mission that deployed the Hubble Space 
Telescope. Prior to being appointed Administrator, Mr. Bolden 
served in the United States Marine Corps for 34 years. During 
his service he was an aviator, having flown 100 missions in 
Southeast Asia during the Vietnam War. He was a test pilot. He 
held a number of commands. Mr. Bolden retired from the Corps 
with a rank of Major General.
    He is a true patriot, and we are very proud to have him 
here today. He is also a friend of mine, admired by many. I 
observed him just several weeks ago as he nurtured the care of 
those that had lost others in carrying out the space program 
out at the cemetery here. I was with him last Thursday as he 
welcomed everybody for a great day and a day of pride that we 
launched successfully, and he is a true patriot, and we are 
very glad to have him before us today.
    I recognize you, sir, for five minutes, but we would be 
more lenient with you since I had to read all these things to 
you here. If you need more time, you take it.

  STATEMENT OF CHARLES F. BOLDEN JR., ADMINISTRATOR, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Bolden. Chairman Hall, Ranking Member Johnson, Members 
of this Committee, thank you very much. And Chairman and 
Ranking Member, let me congratulate both of you on your new 
leadership roles. I want to thank you and all the Members of 
the Committee for the longstanding support that all of you have 
given to NASA.
    We have a common passion for space exploration and the 
benefits it brings our Nation. As you take on your new 
responsibilities, I look forward to continuing our work 
together in the same collegial fashion as we have in the past. 
And I would like to take the liberty of also thanking you, 
Chairman Hall, for getting space back into the name of this 
Committee. It was missing for many years, and it is now back in 
the name. So I do appreciate that.
    With your permission, Mr. Chairman, I would like to show a 
very short video clip that we brought with us, if that is okay.
    Chairman Hall. And who would object?
    [Video]
    Mr. Bolden. Thank you for the time to show that video, Mr. 
Chairman. Not a day goes by that I don't think and pray about 
Gabby. All of us in the NASA family continue to pray for her 
speedy and full recovery.
    The International Space Station is our anchor for future 
exploration, and our crew members aboard ISS are truly serving 
on the frontiers of human experience. We are delighted that 
with the authorization bill passed and signed into law last 
fall, the station will continue as a global resource for 
another 10 years.
    It is my privilege today to discuss the President's fiscal 
year 2012 budget request of $18.7 billion for NASA. Despite the 
commitment to fiscal restraint, I am pleased that we are 
proposing to hold funding at the level appropriated in 2010, 
which of course, continues to be our spending level under the 
continuing resolution. This budget request continues the 
agency's focus on a reinvigorated path of innovation and 
technological discovery, leading to an array of challenging 
destinations and missions that engage the public.
    The Authorization Act of 2010 gave NASA a clear direction. 
We're moving forward to implement the details of that Act with 
this fiscal year 2012 budget. The President's budget for NASA 
funds all major elements of the Act while supporting a diverse 
portfolio of key programs.
    Because these are tough fiscal times, we also had to make 
some difficult choices. Reductions were necessary in some areas 
so we can invest in the future while living within our means. 
This budget maintains a strong commitment to human spaceflight 
and the development of new technologies. It invests in the 
excellent science, aeronautics research and education programs 
that will help us win the future. It carries out programs of 
innovation to support long-term job growth and a dynamic 
economy that will help us out-innovate, out-educate and out-
build all others in the world.
    [Chart]
    Along with our budget proposal, last week we published our 
2011 strategic plan. NASA's core mission in support of this 
vision that is on the chart remains fundamentally the same as 
it has since its inception in 1958. Just this past week, we 
launched STS-133 on the Shuttle Discovery, one of the final 
three Shuttle flights to the ISS. Along with supplies that will 
support the station's scientific research and technology 
demonstrations, Discovery has also delivered a robotic crew 
member, Robonaut 2, R2. The Glory Earth Science Mission will 
launch from California this week on a mission to help us better 
understand Earth, its atmosphere and the variables affecting 
our climate. Our space program continues to venture in ways 
that will have long-term benefits, and there are many more 
milestones in the very near term.
    Yesterday, we announced three new program offices to carry 
out our future work. NASA brings good jobs and bolsters the 
economy and communities across this Nation.
    [Chart]
    This chart shows at a very high level the scope of our 
activities for fiscal year 2012. Our priorities in human 
spaceflight in the fiscal year 2012 budget request are to 
maintain safe access for American astronauts to low Earth orbit 
as we fully utilize the International Space Station; facilitate 
safe, reliable and cost-effective U.S.-provided commercial 
access to low Earth orbit for American astronauts and their 
supplies as soon as possible; begin to lay the groundwork for 
expanding human presence into deep space, the moon, asteroids 
and eventually Mars through the development of a powerful, 
evolvable heavy-lift rocket and multipurpose capsule; and 
pursue technology development to carry humans farther into the 
solar system. These initiatives will enable America to retain 
its position as a leader in space exploration for generations 
to come.
    At the same time, in our other endeavors, our priorities 
are to extend our reach with robots and scientific 
observatories to learn more about our home planet and the solar 
system and peer beyond it to the origins of the universe; 
pursue ground-breaking research into the next generation of 
aviation technologies; and carry out dynamic education programs 
that help develop the next generation of science, technology, 
engineering and mathematics professionals. That is a lot, but 
NASA thrives on doing big things. We have vastly increased 
human knowledge, and our discoveries and technologies have 
improved life on Earth.
    There has been some concern that NASA is abandoning human 
spaceflight. This simply is not true.
    [Chart]
    These charts illustrate the percentage of NASA's budget 
that supports human spaceflight. As you can see, it is a 
substantial portion, 44 percent in this chart. If I remove the 
cost of facilities and other support, it is 57 percent of our 
budget.
    [Chart]
    Here is human spaceflight broken out with its slice of the 
pie alone. We devote some resources in closing out the Shuttle 
program. As the centerpiece of human spaceflight and the 
critical anchor for our future deep space exploration, the 
International Space Station gets the largest portion of funds. 
The next generation of vehicles, the evolvable heavy-lift 
rocket and the multipurpose crew vehicle, received 39 percent 
of our human spaceflight budget. Our continuing efforts to 
facilitate commercial access to space receive a significant 
boost but still represent almost the smallest piece of our 
human spaceflight pie.
    I want to commend the NASA workforce, both civil servants 
and contractors, across the Nation for their dedication to our 
missions during this time of transition and change. These 
workers are our greatest assets, and they make us all proud. 
They fully understand the risks of our exploration and welcome 
the challenge. They will be the ones making tomorrow happen.
    These are exciting and dynamic times at NASA. The 
challenges ahead are significant, but the opportunities are 
great. We have to achieve big things that will create a 
measurable impact on our economy, our world and our way of 
life.
    I thank you for the time to make my statement, and I look 
forward to your questions, Mr. Chairman.
    [The prepared statement of Mr. Bolden follows:]

       Prepared Statement of The Honorable Charles F. Bolden, Jr.

    Mr. Chairman and Members of the Committee, today it is my privilege 
to discuss the President's FY 2012 budget request of $18.7 billion for 
NASA. This request continues the Agency's focus on a reinvigorated path 
of innovation and technological discovery leading to an array of 
challenging destinations and missions that increases our knowledge, 
develop technologies to improve life, to expand our presence in space 
for knowledge and commerce, and that will engage the public. With the 
President's signing of the NASA Authorization Act of 2010 (P.L. 111-
267) on October 11, 2010, NASA has a clear direction and is moving 
forward. NASA appreciates the significant effort that advanced this 
important bipartisan legislation, particularly efforts by the 
leadership and Members of this Committee. This is a time of opportunity 
for NASA to shape a promising future for the Nation's space program.
    Because these are tough fiscal times, tough choices had to be made. 
But the proposed FY 2012 budget funds all major elements of the 
Authorization Act, supporting a diverse portfolio of programs, while 
making difficult choices to fund key priorities and reduce other areas 
in order to invest in the future. A chart summarizing the President's 
FY 2012 budget request for NASA is enclosed as Enclosure 1.
    We have an incredible balance of human space flight, science, 
aeronautics and technology development. Within the human space flight 
arena, our foremost priority is our current human spaceflight 
endeavor--the International Space Station--and the safety and viability 
of the astronauts aboard it. The request also maintains a strong 
commitment to human spaceflight beyond low Earth orbit. It establishes 
critical priorities and invests in the technologies and excellent 
science, aeronautics research, and education programs that will help us 
win the future. The request supports an aggressive launch rate over the 
next two years with about 40 U.S. and international missions to the 
ISS, for science, and to support other agencies.
    At its core, NASA's mission remains fundamentally the same as it 
always has been and supports our new vision: ``To reach for new heights 
and reveal the unknown so that what we do and learn will benefit all 
humankind.'' This statement is from the new multi-year 2011 NASA 
Strategic Plan accompanying the FY 2012 budget request, which all of 
NASA's Mission Directorates, Mission Support Offices and Centers helped 
to develop, and reflects NASA's proposed direction and priorities.
    Our human spaceflight priorities in the FY 2012 budget request are 
to:

        <bullet>  safely fly the last Space Shuttle flights this year 
        and maintain safe access for humans to low-Earth orbit as we 
        fully utilize the International Space Station;

        <bullet>  facilitate safe, reliable, and cost-effective U.S.-
        provided commercial access to low-Earth orbit first for cargo 
        and then for crew as quickly as possible;

        <bullet>  begin to lay the ground work for expanding human 
        presence into deep space--the Moon, asteroids, eventually 
        Mars--through development of a powerful, evolvable heavy-lift 
        rocket and multi-purpose crew capsule; and

        <bullet>  pursue technology development that is needed to carry 
        humans farther into the solar system. Taken together, these 
        human spaceflight initiatives will enable America to retain its 
        position as a leader in space exploration for generations to 
        come.

    At the same time, we will extend our reach with robots and 
scientific observatories to expand our knowledge of the universe beyond 
our own planet. We will continue the vital work to expand our abilities 
to observe our planet Earth and make that data available for decision 
makers. We will also continue our groundbreaking research into the next 
generation of aviation technologies. Finally, we will make the most of 
all of NASA's technological breakthroughs to improve life here at home.

    With the FY 2012 budget, NASA will carry out research, technology 
and innovation programs that support long-term job growth and economic 
competitiveness and build upon our Nation's position as a technology 
leader. We will educate the next generation of technology leaders 
through vital programs in science, technology, engineering, and 
mathematics education. And we will build the future through those 
investments in American industry to create a new job-producing engine 
for the U.S. economy.
    This year we honor the legacy of President John F. Kennedy who 50 
years ago set the United States on a path that resulted in a national 
effort to produce an unprecedented achievement. Now, we step forward 
along a similar path, engaged in a wide range of activities in human 
spaceflight, technology development, science, and aeronautics--a path 
characterized by engagement of an expanded commercial space sector and 
technology development to mature the capabilities required by 
increasingly challenging missions designed to make discoveries and 
reach new destinations.
    NASA's Science Mission Directorate (SMD) continues to rewrite 
textbooks and make headlines around the world. Across disciplines and 
geographic regions worldwide, NASA aims to achieve a deep scientific 
understanding of Earth, other planets and solar system bodies, our star 
system in its entirety, and the universe beyond. The Agency is laying 
the foundation for the robotic and human expeditions of the future 
while meeting today's needs for scientific information to address 
national concerns about global change, space weather, and education.

        <bullet>  The Mars Science Laboratory will launch later this 
        year and arrive at Mars in August 2012. It will be the largest 
        rover ever to reach the Red Planet and will search for evidence 
        of both past and present life.

        <bullet>  The Nuclear Spectroscopic Telescope Array (NuSTAR) 
        mission will launch in early 2012 and become the first focusing 
        hard X-ray telescope to orbit Earth.

        <bullet>  Research and analysis programs will use data from an 
        array of sources, including spacecraft, sounding rockets, 
        balloons, and payloads on the ISS. We will continue to evaluate 
        the vast amounts of data we receive from dozens of ongoing 
        missions supported by this budget.

        <bullet>  A continued focus on Earth Science sees us continuing 
        development of the Orbiting Carbon Observatory-2 (OCO-2) for 
        launch in 2013 and other initiatives to collect data about our 
        home planet across the spectrum.

        <bullet>  The budget reflects the scientific priorities for 
        astrophysics as expressed in the recent Decadal Survey of the 
        National Academy of Sciences. The budget supports small-, 
        medium-, and large-scale activities recommended by the Decadal 
        Survey.

        <bullet>  The Radiation Belt Storm Probe mission will launch 
        next year, and development of other smaller missions and 
        instruments to study the Sun will get underway here on the 
        ground.

    With the appointment of a new Chief Scientist, NASA will pursue an 
integrated, strategic approach to its scientific work across Mission 
Directorates and programs.
    As we continue our work to consolidate the Exploration Systems and 
Space Operations Mission Directorates (ESMD and SOMD), both groups will 
support our current human spaceflight programs and continue work on 
technologies to expand our future capabilities.

        <bullet>  We will safely fly out the Space Shuttle in 2011, 
        including STS-135 if funds are available, and then proceed with 
        the disposition of most Space Shuttle assets after the 
        retirement of the fleet. The Shuttle program accomplished many 
        outstanding things for this Nation, and in 2012 we look forward 
        to moving our retired Orbiters to museums and science centers 
        across the country to inspire the next generation of explorers.

        <bullet>  Completing assembly of the U.S. segment of the ISS 
        will be the crowning achievement of the Space Shuttle's nearly 
        30-year history. The ISS will serve as a fully functional and 
        permanently crewed research laboratory and technology test bed, 
        providing a critical stepping stone for exploration and future 
        international cooperation, as well as an invaluable National 
        Laboratory for non-NASA and nongovernmental users. During FY 
        2011, NASA will award a cooperative agreement to an independent 
        non-profit organization (NPO) with responsibility to further 
        develop national uses of the ISS. The NPO will oversee all ISS 
        research involving organizations other than NASA, and transfer 
        current NASA biological and physical research to the NPO in 
        future years.

        <bullet>  In 2012, we will make progress in developing a new 
        Space Launch System (SLS), an evolvable heavy-lift rocket that 
        will be the first step on our eventual journeys to destinations 
        beyond LEO.

        <bullet>  We will continue work on a Multi Purpose Crew Vehicle 
        (MPCV) that will build on the human safety features, designs, 
        and systems of the Orion Crew Exploration Vehicle. As with the 
        SLS, acquisition strategy decisions will be finalized by this 
        summer.

        <bullet>  NASA will continue to expand commercial access to 
        space and work with our partners to achieve milestones in the 
        Commercial Orbital Transportation Services (COTS) Program, the 
        Commercial Resupply Services (CRS) effort, and an expanded 
        Commercial Crew Development (CCDev) program. As we direct 
        resources toward developing these capabilities, we not only 
        create multiple means for accessing LEO, we also facilitate 
        commercial uses of space, help lower costs, and spark an engine 
        for long-term job growth. While the request is above the 
        authorized level for 2012, NASA believes the amount is 
        critical, combined with significant corporate investments, to 
        ensure that we will have one or more companies that can 
        transport American astronauts to the ISS. With retirement of 
        the Space Shuttle in 2011, this is a top Agency priority.

        <bullet>  Most importantly, NASA recognizes that these 
        programmatic changes will continue to personally affect 
        thousands of NASA civil servants and contractors who have 
        worked countless hours, often under difficult circumstances, to 
        make our human spaceflight, science, and aeronautics programs 
        and projects successful. I commend the investment that these 
        dedicated Americans have made and will continue to make in our 
        Nation's space and aeronautics programs. These are tremendously 
        exciting and dynamic times for the U.S. space program. NASA 
        will strive to utilize our workforce in a manner that will 
        ensure that the Nation maintains NASA's greatest asset--the 
        skilled civil servants and contractors--while working to 
        increase the efficiency and cost-effectiveness in all of its 
        operations.

        <bullet>  The 21st Century Space Launch Complex program will 
        focus on upgrades to the Florida launch range, expanding 
        capabilities to support SLS, MPCV, commercial cargo/launch 
        services providers, and transforming KSC into a modern facility 
        that benefits all range users. The program will re-plan its 
        activities based on available FY 2011 funding to align with 
        2010 NASA Authorization's focus areas, including cross 
        organizational coordination between 21st CSLC, Launch Services, 
        and Commercial Crew activities.

    NASA's Aeronautics Research Mission Directorate (ARMD) continues to 
improve the safety, efficiency and environmental friendliness of air 
travel.

        <bullet>  our work continues to address the challenge of 
        meeting the growing technology and capacity needs of the Next 
        Generation air travel system, or ``NextGen,'' in coordination 
        with the FAA and other stakeholders in airspace efficiency.

        <bullet>  NASA's work on green aviation technologies that 
        improve fuel efficiency and reduce noise continues apace.

        <bullet>  We also continue to work with industry to develop the 
        concepts and technologies for the aircraft of tomorrow. The 
        Agency's fundamental and integrated systems research and 
        testing will continue to generate improvements and economic 
        impacts felt by the general flying public as well as the 
        aeronautics community.

    The establishment last year of the Office of the Chief Technologist 
(OCT) enabled NASA to begin moving toward the technological 
breakthroughs needed to meet our Nation's space exploration goals, 
while building our Nation's global economic competitiveness through the 
creation of new products and services, new business and industries, and 
high-quality, sustainable jobs. By investing in high payoff, disruptive 
technology that industry cannot tackle today, NASA matures the 
technology required for our future missions in science and exploration 
while improving the capabilities and lowering the cost of other 
government agencies and commercial activities.

        <bullet>  In OCT's cross-cutting role, NASA recently developed 
        draft space technology roadmaps, which define pathways to 
        advance the Nation's capabilities in space and establish a 
        foundation for the Agency's future investments in technology 
        and innovation. NASA is working collaboratively with the 
        National Research Council (NRC) to refine these roadmaps. The 
        final product will establish a mechanism for prioritizing 
        NASA's technology investments, and will support the initial 
        Space Technology Policy Congress requested in the NASA 
        Authorization Act.

        <bullet>  As leader of the Space Technology Program, OCT will 
        sponsor a portfolio of both competitive and strategically-
        guided technology investments, bringing the agency a wide range 
        of mission-focused and transformative technologies that will 
        enable revolutionary approaches to achieving NASA's current and 
        future missions.

        <bullet>  In FY 2012, a significant portion of the Exploration 
        Technology Development Program is moved from ESMD to Space 
        Technology. These efforts focus on developing the long-range, 
        exploration-specific technologies to enable NASA's deep space 
        human exploration future. The integration of Exploration 
        Technology activities with Space Technology creates one robust 
        space technology budget line, and eliminates the potential for 
        overlap had NASA's space technology investments been split 
        among two accounts. ESMD will continue to set the prioritized 
        requirements for these efforts and will serve as the primary 
        customer of Space Technology's Exploration-specific activities.

        <bullet>  continues to manage SBIR and STTR, and integrates 
        technology transfer efforts ensure NASA technologies are 
        infused into commercial applications, develops technology 
        partnerships, and facilitates emerging commercial space 
        activities

    Recognizing that our work must continuously inspire not only the 
public at large but also students at all levels, NASA's Education 
programs this year focus on widening the pipeline of students pursuing 
coursework in science, technology, engineering and mathematics (STEM). 
As President Obama has said, ``Our future depends on reaffirming 
America's role as the world's engine of scientific discovery and 
technological innovation. And that leadership tomorrow depends on how 
we educate our students today, especially in math, science, technology, 
and engineering.''

        <bullet>  The FY 2012 request for NASA's Office of Education 
        capitalizes on the excitement of NASA's mission through 
        innovative approaches that inspire educator and student 
        interest and proficiency in STEM disciplines. NASA's education 
        program in FY 2012 and beyond will focus and strengthen the 
        Agency's tradition of investing in the Nation's education 
        programs and supporting the country's educators who play a key 
        role in inspiring, encouraging, and nurturing the young minds 
        of today, who will manage and lead the Nation's laboratories 
        and research centers of tomorrow.

        <bullet>  Among NASA's Education activities will be a continued 
        Summer of Innovation, building on the successful model piloted 
        with four states this past year.

    All of these activities place NASA in the forefront of a bright 
future for America, where we challenge ourselves and create a global 
space enterprise with positive ramifications across the world. The FY 
2012 budget request provides the resources for NASA to innovate and 
make discoveries on many fronts, and we look forward to implementing 
it. See Enclosure 2 for a more detail summary of each activity.

                               Conclusion

    As we enter the second half-century of human spaceflight, the 
Nation can look back upon NASA's accomplishments with pride, but we can 
also look forward with anticipation to many more achievements to come. 
The NASA Authorization Act of 2010 (P.L. 111-267) has provided us with 
clear direction that enables the Agency to conduct important research 
on the ISS, develop new launch vehicle and crew transportation 
capabilities to go beyond the bounds of LEO, utilize a dazzling array 
of spacecraft to study the depths of the cosmos while taking the 
measure of our home planet, improve aviation systems and safety, 
develop new technologies that will have applications to both space 
exploration and life on Earth, and inspire the teachers and students of 
our country. In developing and executing the challenging missions that 
only NASA can do, we contribute new knowledge and technologies that 
enhance the nation's ability to compete on the global stage and help to 
secure a more prosperous future.
    These are tough fiscal times, calling for tough choices. The 
President's FY 2012 budget request makes those choices and helps 
advance all of these bold aims, and we look forward to working with the 
Committee on its implementation.
    Mr. Chairman, thank you for your support and that of this 
Committee. I would be pleased to respond to any questions you or the 
other Members of the Committee may have.

           Biography of The Honorable Charles F. Bolden, Jr.

    Nominated by President Barack Obama and confirmed by the U.S. 
Senate, retired Marine Corps Major General Charles Frank Bolden, Jr., 
began his duties as the twelfth Administrator of the National 
Aeronautics and Space Administration on July 17, 2009. As 
Administrator, he leads the NASA team and manages its resources to 
advance the agency's missions and goals.
    Bolden's confirmation marks the beginning of his second stint with 
the nation's space agency. His 34-year career with the Marine Corps 
included 14 years as a member of NASA's Astronaut Office. After joining 
the office in 1980, he traveled to orbit four times aboard the space 
shuttle between 1986 and 1994, commanding two of the missions. His 
flights included deployment of the Hubble Space Telescope and the first 
joint U.S.-Russian shuttle mission, which featured a cosmonaut as a 
member of his crew. Prior to Bolden's nomination for the NASA 
Administrator's job, he was employed as the Chief Executive Officer of 
JACKandPANTHER LLC, a small business enterprise providing leadership, 
military and aerospace consulting, and motivational speaking.
    A resident of Houston, Bolden was born Aug. 19, 1946, in Columbia, 
S.C. He graduated from C. A. Johnson High School in 1964 and received 
an appointment to the U.S. Naval Academy. Bolden earned a bachelor of 
science degree in electrical science in 1968 and was commissioned as a 
second lieutenant in the Marine Corps. After completing flight training 
in 1970, he became a naval aviator. Bolden flew more than 100 combat 
missions in North and South Vietnam, Laos, and Cambodia, while 
stationed in Namphong, Thailand, from 1972-1973.
    After returning to the U.S., Bolden served in a variety of 
positions in the Marine Corps in California and earned a master of 
science degree in systems management from the University of Southern 
California in 1977. Following graduation, he was assigned to the Naval 
Test Pilot School at Patuxent River, Md., and completed his training in 
1979. While working at the Naval Air Test Center's Systems Engineering 
and Strike Aircraft Test Directorates, he tested a variety of ground 
attack aircraft until his selection as an astronaut candidate in 1980.
    Bolden's NASA astronaut career included technical assignments as 
the Astronaut Office Safety Officer; Technical Assistant to the 
Director of Flight Crew Operations; Special Assistant to the Director 
of the Johnson Space Center; Chief of the Safety Division at Johnson 
(overseeing safety efforts for the return to flight after the 1986 
Challenger accident); lead astronaut for vehicle test and checkout at 
the Kennedy Space Center; and Assistant Deputy Administrator at NASA 
Headquarters. After his final space shuttle flight in 1994, he left the 
agency to return to active duty the operating forces in the Marine 
Corps as the Deputy Commandant of Midshipmen at the U.S. Naval Academy.
    Bolden was assigned as the Deputy Commanding General of the 1st 
Marine Expeditionary Force in the Pacific in 1997. During the first 
half of 1998, he served as Commanding General of the 1st Marine 
Expeditionary Force Forward in support of Operation Desert Thunder in 
Kuwait. Bolden was promoted to his final rank of major general in July 
1998 and named Deputy Commander of U.S. Forces in Japan. He later 
served as the Commanding General of the 3rd Marine Aircraft Wing at 
Marine Corps Air Station Miramar in San Diego, Calif., from 2000 until 
2002, before retiring from the Marine Corps in 2003. Bolden's many 
military decorations include the Defense Superior Service Medal and the 
Distinguished Flying Cross. He was inducted into the U.S. Astronaut 
Hall of Fame in May 2006.
    Bolden is married to the former Alexis (Jackie) Walker of Columbia, 
S.C. The couple has two children: Anthony Che, a lieutenant colonel in 
the Marine Corps who is married to the former Penelope McDougal of 
Sydney, Australia, and Kelly Michelle, a medical doctor now serving a 
fellowship in plastic surgery.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Hall. Thank you, Mr. Bolden. I think most of you 
know that our Committee rules limit questioning to five 
minutes. I will recognize myself for five minutes.
    Mr. Bolden, as I said in my opening remarks, I want us to 
have the safest possible assured access to the space station 
that meets the goals of the United States and our international 
partners, and I know you want that same thing.
    Trying to stimulate commercial competition is a worthy goal 
that I support but not at the expense of insuring the safest, 
most robust system for our astronauts. Norm Augustine's 
committee report said while there may be potential benefits of 
commercial services that transport crews to the low-Earth 
orbit, there are simply too many risks at the present time not 
to have a viable fallback option for risk mitigation.
    Congress has taken these concerns to heart and expressed 
them in the policy and funding direction in the NASA 
Authorization Act and in subsequent appropriations measures 
including the fiscal year 2011 continuing resolution. Yet, 
NASA's fiscal year 2012 budget request once again seeks to 
reverse Congressional priorities by proposing increased funding 
for commercial crew activities and significant reductions in 
the multipurpose crew vehicle and space launch system that 
builds on the experience, the workforce of the Shuttle, the 
workforce of Republicans and Democrats alike and the 
Constellation program to ensure that we have the capabilities 
to do the things in space that are strategically important for 
the United States.
    Mr. Bolden, frankly we are exasperated that NASA is not 
listening to our message, and I guess maybe you are listening 
to our message and maybe your advice falls on non-receptive 
ears. I don't know what the problem is, but I think for this 
Committee here, we would appreciate if you could just justify 
why NASA is proposing the reductions to the human exploration 
capabilities budget that is clearly our priority.
    Mr. Bolden. Mr. Chairman, I get your message loud and clear 
and so does the President, and as I mentioned, I think the 
budget does in fact reflect following your guidance.
    As I mentioned, these are very difficult times. Things have 
changed significantly since last year when we all thought that 
we were on a certain path. I took a look at the priorities that 
were established for us in human spaceflight, and I will tell 
you, it was probably 2004. You will remember better than I. But 
I came with John Blaha, former astronaut. The two of us came up 
to brief you on potential future human spacecraft when we were 
trying to decide how we were going to execute the vision for 
space exploration, and John Blaha got down on his knees at your 
desk and took a pad of paper and started drawing guidelines and 
descriptions of why a certain spacecraft could not work or 
would not work. And you made the statement to us that you 
understand all that but I need to understand something else and 
I need to take this message back to the NASA Administrator. We 
will not lose another crew in spaceflight, and if we do, 
somebody will have hell to pay. Those words have stuck with me, 
and I do not intend to have to pay any debt on losing a crew. 
So safety of our crews is always my number one priority.
    When I looked at how we get them safely to the 
International Space Station on American-made rockets, the best 
way to do that, and we can discuss this in the coming months, 
but the best, most efficient, perhaps fastest way to do that is 
by relying on the commercial entities that are well-along in 
their development programs to provide access to low-Earth orbit 
while NASA engages exploration, uses the evolvable heavy-lift 
vehicle and crew exploration vehicle to go do exploration 
beyond low-Earth orbit.
    So I think we are complying with the major elements of the 
Authorization Act, and we made the adjustments in the balance 
inside that Act that now causes the consternation because we 
wanted to make sure that I put number one priority, safety of 
the crew. The heavy-lift launch vehicle and the multipurpose 
crew vehicle, while they are exploration vehicles, and 
everybody needs to understand that. They are not being built to 
double as low-Earth orbit vehicles. That is inefficient. I 
think anybody around here knows that when you try to build one 
system to do everything, you end up with nothing.
    So we are building, we are going to build an exploration 
system, heavy-lift launch vehicle and multipurpose crew 
vehicle. Anything that can go beyond Earth orbit can go to low-
Earth orbit. It is just very inefficient and a big waste of 
money. But the exploration systems will have the capability of 
providing backup should any commercial entity fail. And failure 
is not meant they failed to produce. They will produce because 
the commercial entities have produced for years. Orbital, that 
is one of our competitors right now in both the COTS program 
and the CRS program and has announced that they intend to 
compete in commercial crew. Orbital has a record of success 
since the 1980s and 1990s. They have launched 155 successful 
space launches. Many of my satellites that are on orbit today 
were put there by Orbital sciences. So they can produce. Anyone 
who would try to convince you that they cannot, that American 
industry cannot produce, is just not being factual and they are 
not being truthful and they are being disingenuous.
    So we have made the decision that safety of the crew is 
number one priority. The quickest, most efficient, safest way 
for me to get them there is through relying on commercial 
entities to handle to access to low-Earth orbit, and then my 
focus on safety for crews that are going beyond low-Earth 
orbit.
    Chairman Hall. I don't know how much more time I have, but 
30 years ago or over 30 years ago when I first came up here, I 
was lucky enough or fortunate enough to be on this Committee. 
And I took trips to the areas that launched our people. You and 
many other brave men and women that made the program such an 
American program, something we were so proud of, and I had 
hoped at that time that some day commercial people could, that 
the private sector could launch these things and take it away 
from the government. But knowing that it took the tax basis, 
the background of all of the people of the United States to 
make it go, I realized that was going to be a long time coming. 
I think you have the opinion that it is basically here or that 
we are hoping that we can reach that. And I hope that we can 
all get together. You and I differ on this, and some of us 
differ on it. Some of our Members here are good, valuable 
Members, agree with you 100 percent.
    So you have support on this Committee and you have my 
support, but I want to get together with the people that can 
make it go and be sure they can make it go. And I don't want to 
close the bidding to anybody in the world, but I want them to 
do more than just sign a contract. I want them to show as you 
say that they can do what they are contracting to do and not go 
halfway and look back over their shoulder and say so sorry.
    Mr. Bolden. Yes, sir.
    Chairman Hall. That is what we have to guard against, and I 
thank you for your answer.
    Mr. Bolden. Thank you, Mr. Chairman.
    Chairman Hall. At this time, I recognize Mrs. Johnson.
    Ms. Johnson. Thank you very much. I am not really sure 
where to begin. You have indicated that NASA has planned the 
last Shuttle mission, STS-135 if funds are available. 
Recognizing that the appropriations for 2011 have not been even 
finalized, what priority does STS-135 have relative to the 
priorities of NASA otherwise?
    Mr. Bolden. Congresswoman, STS-135 is on my schedule, and I 
intend to fly STS-135 in June. I have a launch date. I think it 
is June 28, and unless this Congress does something that 
changes the fiscal status of present conditions, and you can do 
that. I mean, if you take drastic action and significantly 
reduce the amount of money that I get whenever we get a 2011 
budget, then it could change things. But right now, I 
anticipate that reasonable people can disagree and that the 
Congress is going to come to agreements that will not cripple 
NASA and the rest of the Nation, and we will fly STS-135.
    Ms. Johnson. Thank you very much, and I yield back, Mr. 
Chairman.
    Chairman Hall. At this time I will recognize the gentleman 
from Texas, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. Mr. Bolden, less than a 
year ago the President gave a speech and said that he actually 
wanted to increase NASA's budget by I think $6 billion. The 
White House budget is now I think $2.5 billion less than NASA's 
flat line budget. You imply in your testimony that there are 
going to be sufficient resources for the heavy-lift rocket, for 
the crew vehicle and for landing systems for missions to I 
guess Mars, moon and the asteroids.
    It seems to me that vision without resources is a fantasy 
and that it is not really credible to say you can complete all 
those missions with the resources that have been designated, 
and I just wondered if you would respond to that. There are a 
lot of professionals, a lot of NASA professionals, that just 
say it can't be done, and you and the Administration are saying 
it can be done.
    Mr. Bolden. So you are the only one that I have heard in 
the last few weeks that I am saying that anything can be done. 
Everybody else tells me I am saying it can't, and I do believe 
it can.
    Mr. Smith. So you stand by your budget and think you are 
going to accomplish all that with the resources that you have 
designated?
    Mr. Bolden. Yes, sir, I do.
    Mr. Smith. Okay. Would you please give me a timetable and a 
cost for the missions, not to Mars. That is just I think off 
the books and too expensive. But give me a cost and a timetable 
for the missions back to the moon and to the asteroids.
    Mr. Bolden. Congressman, I am unable to give you a 
timetable at this particular time because we need to find out 
first of all what my 2011 budget is going to be. I am spending 
right now at the 2010 spending level hoping that that doesn't 
get dramatically reduced below that. If it does, all bets are 
off because as we get close--I don't intend to be preaching to 
the choir here, but I just want to remind everybody, the closer 
we get to the end of the fiscal year, if I get a drastic 
reduction in my budget, it all hits at one time and all bets 
are off. We have got to go back to the drawing board. I don't 
anticipate that that is going to happen. It is my hope that we 
will be able to continue spending at the 2010 level or higher, 
and then I think we are planning to bring to the Congress in 
the summer a plan for a multipurpose crew vehicle and evolvable 
heavy-lift system that will enable us to meet targets set by 
the Congress and the President, and those targets to date are 
an asteroid in the timeframe of 2025 or so and a mission to or 
around the moon with a follow-on landing some time in the '20, 
'30s. So those dates I still stand by.
    The other date that you gave me in the Authorization Act, 
2016 for a heavy-lift launch vehicle and a multipurpose crew 
module, those were difficult meeting even under the proposed 
2011 budget and the amounts, the level of the Authorization 
Act. And that was what I said in my 90-day report, that I 
can't--I did not say we could not do it. What I said was given 
the level of funding in the 2010 Authorization Act, you have 
now made it very difficult for me to be able to execute the 
development of a heavy-lift launch system and a multipurpose 
crew vehicle that is flying in 2016. I have not said I cannot 
do that, but I don't want to mislead anyone and make them think 
that I am saying we can do it.
    There are a lot of industry representatives sitting behind 
me here who will tell you that we, together as a team, are 
going to be challenged no matter how much money you give us. 
But we will make our effort to do what it is that the Congress 
and the President----
    Mr. Smith. Mr. Bolden, let me squeeze in one more question 
and that is I was glad to see I think an eight percent increase 
in the astrophysics program. A lot of that is going to be 
directed to the search for Earth-like planets. What is the 
latest development in that area and what do you expect us to 
learn in the next couple of years?
    Mr. Bolden. Congressman, you sound like someone who is 
interested, so I will tell you the results from WISE and 
results to date from the Kepler observatory have been next to 
phenomenal. We have identified, and I can't hold it in my 
brain, the numbers, but we have just in the last year 
identified literally hundreds if not thousands----
    Mr. Smith. What about the future, the next couple years?
    Mr. Bolden. We are going to fly additional missions that 
will just build upon that knowledge. Kepler is not done. WISE 
is shut out, but we are looking at a follow-on to WISE. You 
know, I would love to fly something that goes around Venus and 
looks back at Earth because I am not an astrophysicist or any 
of that stuff, but my science experts tell me that if we can 
put something like a WISE satellite in a Venus orbit looking 
back at Earth, when it comes to near-Earth objects, for 
example, things that will threaten this planet, we will have a 
much better look at them, a much better ability to make early 
determinations on their trajectory. And I know this is hokey 
stuff to some people and they will want to laugh me off the 
planet but potentially will save the planet one of these days.
    Mr. Smith. Thank you, Mr. Bolden. Thank you, Mr. Chairman.
    Chairman Hall. Thank you. At this time the Chair recognizes 
the gentleman from Oregon, Congressman Wu. All right. The 
gentlelady Ms. Edwards. I recognize Ms. Edwards and I am proud 
to.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you, Mr. 
Administrator.
    I just have a question that goes to the consistencies 
between the authorization and your budget, and I think there 
are a number of areas where--what I am trying to read is 
whether the authorization that we only just recently approved 
kind of matches your budget priorities. And so I would 
appreciate your speaking to that, and then further going to the 
details of the Earth sciences. And my concern is that I think 
where we try to step up our investment in Earth sciences, it 
seems that, you know, some of that is being sacrificed in this 
budget. And so I would like you to address that and address, if 
you will, the continuing resolution as we have known it, and I 
think we will see some evolution of that over the next couple 
of weeks, and what the budget impact of the CR would be on the 
Earth sciences component, stretching out some of these 
programs. And in some cases, I guess I wonder whether, you 
know, once you began to stretch out or cancel these programs, 
the investment that we have already made in them might cancel 
out any potential savings from cancelling them. So I am a 
little unclear about that, and if you could give us some 
insight into those areas of the budget proposal, I would 
appreciate it.
    Mr. Bolden. Yes, ma'am. Congresswoman, let me go back to 
October of last year. Some of you will remember I was making 
phone calls to you as debate was going on on the floor of the 
House about the Authorization Act. I was criticized for being 
out of the country. Nonetheless, I don't think that any of you 
knew that I was because I was on the phone to you all night 
when we debated the level of authorization or even the passage 
of the authorization bill. At that time we had not had an 
election. The fiscal environment in the Nation was a lot 
different than it was one month later when the President 
finally signed the bipartisan Authorization Act.
    So things really changed between the time that this 
Congress labored to develop the 2010 Authorization Act and the 
time that the President signed it and now. We always face the 
budgetary problems that we do today, but none of us have taken 
the time to sit down and say, okay, we are really going to deal 
with it.
    So the 2012 budget made our first effort to say we are 
really going to deal with the fiscal reality, and so we took a 
cut. We made some very difficult choices in all of our 
programs. The Earth science programs to which you question, 
many of them went back to the dates of launch that were planned 
when I became the NASA Administrator. If you remember, when we 
proposed the President's 2011 budget, we were really happy 
because we had a significant amount of plus-up for Earth 
science. We were going to pull programs like DESDynI and 
CLARREO forward by as much as two years. We had Earth science 
missions that were going to be flown that we didn't even know 
that we could put on the books. Today things have really 
changed, and so in the case of those two as examples, CLARREO, 
DESDynI, they are now back to the original dates when I became 
the administrator which is about 2018.
    Ms. Edwards. Mr. Administrator, let me just ask you. So if 
you add together the investments that have already been made in 
DESDynI and GPM and the Joint Dark Energy Mission and CLARREO, 
add all of those things together, are we really getting savings 
by cancelling or stretching these out?
    Mr. Bolden. We have no choice but to stretch out DESDynI 
and CLARREO because we don't have the money available that we 
were going to use to bring them forward. And it appears that we 
are stretching them out. We are taking them back to the 
original launch dates. Those two. JDEM is no longer on NASA's 
books. We are looking for other dark energy missions to replace 
that. The one that I think came out of the Astrophysics Decadal 
Survey was WFIRST which is a major mission of significant cost 
that we may or may not be able to bring into this decade, so it 
may have to wait.
    I don't see any reason to take any of our Earth science 
missions off the table right now. I am doing everything I can 
to preserve those missions.
    Ms. Edwards. Well, you can just answer this for the record 
when you can, but I really would appreciate a response from the 
Administration on the effect that these kind of program cuts 
have on experiments that provide satellite reporting that help 
us in the present--understanding and tracking tropical storms 
in Florida and the Gulf Coast, monitoring wildfires in 
California, tornado formations in the middle of the country. I 
mean, these have actually present-day impact when you look at 
the kinds of cuts that are being proposed.
    So if you are telling me that maybe it is that we are not 
going to have any storms, maybe we are not going to have any 
wildfires or tornados, that would be really cool. You would be 
quite a projectionist. But the reality is we won't have the 
tools to look at these things in the way that we need to that 
cost human lives, cost property and damage and impact our 
commerce. And with that I close.
    Mr. Bolden. Congresswoman, I will take that for the record, 
and I would say I thank you for your observation. We are in 
dire straits as a Nation when it comes to weather and climate 
prediction. NPOESS is a satellite system jointly done by NOAA, 
NASA and the Department of Defense which is no longer there. We 
have had to break it up because of problems that we had, and we 
really do need to take a focused look at our Earth science 
programs so that we make sure that we don't allow gaps to occur 
in the coverage for things like weather.
    I need to get people thinking about Earth science as the 
study of our planet, its atmosphere, its oceans and the 
topography, the land, so that we don't do dumb things like 
think we can do away with an Earth science satellite because it 
is talking about global warming. That is not what I do. I don't 
do global warming. I do Earth science. And so we should talk 
more about.
    Chairman Hall. Thank you, Mr. Chairman. I don't do global 
warming, either. We are sure on the same side there.
    Thank you, Ms. Edwards. Now, I recognize one of the real 
veterans of this Committee, Mr. Rohrabacher, the gentleman from 
California.
    Mr. Rohrabacher. Did somebody say global warming? I want to 
thank you, General, for mentioning Earth objects. And again, 
too many people take this issue so lightly, and it would 
surprise no one if tomorrow there was a discovery made that an 
object was heading toward the Earth that could cause tremendous 
loss of life, and we would be caught flat-footed. So those of 
us who are willing to take the laughs, et cetera, and the 
scoffing, are playing a very important role in protecting a 
large number of people on this planet.
    I understand in your budget you are taking care of certain 
usage of the Arecibo telescope that will ensure that that 
important part of identifying objects that could threaten the 
Earth stays in play. Let me know about NPOESS. Had that 
project, NPOESS project, been on time and on budget, we 
wouldn't be worried about anything right now, would we? We 
would have all the money we want. If we just would have run 
that one project, all of the money for heavy lift, all of that, 
would have been available because it has all been wasted. Your 
most important job, General, is to make sure that never happens 
again and that we never waste billions of dollars by having 
programs managed so inefficiently as that program was managed.
    I would like to place in the record, Mr. Chairman, a letter 
for the record of 50 leaders, a letter signed by 50 leaders 
from the space community, including former NASA executives and 
former astronauts and one former chairman of this very 
committee, talking basically--I would like to submit this 
letter for the record at this point, Mr. Chairman.
    Chairman Hall. Without objection.
    [The information follows:]
                        Open Letter to Congress
    01 March 2011

    Dear Members of Congress:

    We, the undersigned space leaders-over 50 of us, are strong 
supporters of human spaceflight. We are writing to urge you to fully 
fund NASA's plan to use commercial companies to carry crew to the Space 
Station because it is critical to the health of the Nation's human 
spaceflight efforts.
    Among us are former NASA executives and advisors, former 
astronauts, CEOs and directors of firms large and small, space 
scientists, space journalists, and others. We include 14 former NASA 
astronauts, 5 former NASA senior executives, 13 educators and nonprofit 
leaders, and 24 space industry leaders from a wide variety of firms and 
institutions, both large and small.
    We are a diverse group, but we are only a tiny fraction of the 
Nation's citizens who support U.S. leadership in human space flight and 
the development of competitive commercial human spaceflight.
    By creating competition, and using fixed price contracts, NASA's 
commercial crew program offers a much less expensive way of 
transporting NASA astronauts to the Station than any other domestic 
means. Funding NASA's Commercial Crew program would lower the cost of 
access to low Earth orbit, thus enabling more of NASA's budget to be 
applied to its focus on exploration beyond low Earth orbit, and better 
enabling the kind of program laid out in NASA's authorization bill.
    NASA's competitive commercial crew program is the best way to 
restore US human launch capability after the Space Shuttle retires 
later this year, to ensure NASA's long-term role in the International 
Space Station, and to open up budget resources to send crew beyond 
Earth orbit.
    Moreover, by being less expensive than other approaches to Space 
Station crew transport, the Commercial Crew program represents one of 
the best means to prevent damage to NASA's human spaceflight 
capabilities in the face of across the board spending cuts being 
discussed by Congress.
    After the Space Shuttle retires, Russia is set to carry American 
astronauts to the Space Station. By hiring American businesses, NASA's 
Commercial Crew to Space Station program also generates thousands of 
high tech American jobs across states ranging from Florida, to Alabama, 
to Texas, to California, to Virginia, to Colorado, to Nevada, and to 
Maryland, rather than sending these jobs overseas to Russia to build 
Soyuz capsules and rockets.
    For these important reasons, we fully and enthusiastically support 
full funding for NASA's commercial crew to Space Station program and 
urge you to support this program as well in your votes this year.

    Sincerely,
    The undersigned, listed alphabetically

Dr. Loren Acton,              Mr. Bretton Alexander
Former NASA Astronaut, 
Professor, Montana State 
University, Bozeman, Montana    President, Commercial 
                                  Spaceflight Federation, 
                                  Alexandria, Virginia

Mr. Eric Anderson             Mr. Jeffery S. Ashby, USN, Ret.
CEO, Space Adventures, 
Chairman of the Board, 
Commercial Spaceflight 
Federation, Seattle, 
Washington                      Former NASA Astronaut, Colorado 
                                  Spring, Colorado

Dr. Jim Bell                  Mr. Ken Bowersox, USAF Ret.
Professor, ASU School of Earth 
and Space Exploration, 
President, The Planetary 
Society Phoenix, Arizona        Former NASA astronaut, Vice 
                                  President of Mission 
                                  Assurance and Astronaut 
                                  Safety, Space Exploration 
                                  Technologies Corp., 
                                  Hawthorne, California

Dr. Jay Buckey                Ms. Heather Bulk
PFormer NASA Astronaut, 
Dartmouth, New Hampshire        President and CEO, Special 
                                  Aerospace Services, Boulder, 
                                  Colorado
Dr. Robert Farquhar           Dr. G. Wayne Finger, P.E.
Senior Mission Designer, 
KinetX Corp., Fairfax, 
Virginia                        Vice President, Aerospace & 
                                  Defense, Reynolds, Smith & 
                                  Hills, Inc., Jacksonville, 
                                  Florida

Dr. Louis K. Friedman         Dr. Owen Garriott
Former Executive Director, The 
Planetary Society, Pasadena, 
California                      Former NASA Astronaut, 
                                  Huntsville, Alabama

Mr. Richard Garriott          Mr. Jeffrey Greason
Space Adventures Astronaut, 
Austin, Texas                   CEO, XCOR Aerospace, Mojave, 
                                  California

Mr. Gerald D. Griffin         Dr. Leroy P. Gross, MD, MPH
Former Director, NASA Johnson 
Space Center, Former Deputy 
Director, NASA Kennedy Space 
Center, Former Deputy 
Director, NASA Dryden Flight 
Research Center, Hunt, Texas    CEO, Innovative Health 
                                  Applications, LLC

Dr. Jeffrey Hoffman           Dr. Rick Holdridge
Former NASA Astronaut, and MIT 
professor, Cambridge, 
Massachusetts                   Chairman of the NM Spaceport 
                                  Authority, Las Cruces, New 
                                  Mexico

Mr. James Muncy               Mr. Elon Musk
Co-Founder, Space Frontier 
Foundation, Alexandria, 
Virginia                        CEO and CTO, Space Exploration 
                                  Technologies Corp., 
                                  Hawthorne, California

Dr. George D. Nelson          Mr. Joseph E. Palaia, IV
Former NASA Astronaut, 
Bellingham, Washington          Manager, NewSpace Center, Vice 
                                  President, 4Frontiers Corp., 
                                  New Port Richey, Florida

Mr. Robert Poole              Ms. Jayne Poynter
Former Member, Bush-Cheney 
Transition Team, Director, The 
Reason Foundation, Los 
Angeles, California             President, Paragon Space 
                                  Development Corp., Tucson, 
                                  Arizona

Mr. Bob Richards              Dr. Russell L. "Rusty" Schweickart
CEO, Moon Express Inc. Google 
Lunar X Prize Team, Sunnyvale, 
California                      Former NASA Astronaut, Sonoma, 
                                  California

Col. Richard Searfoss, USAF 
Ret.                          Col. Jim Voss, USAF Ret.,
Former NASA/Shuttle Commander, 
Chief Test Pilot, XCOR, 
Mojave, California              Former NASA Space Shuttle 
                                  Astronaut and Director of 
                                  Advanced Programs, Sierra 
                                  Nevada Corporation, Space 
                                  Systems, Louisville, Colorado

Mr. Robert Walker             Dr. Jack Burns
Former Chair, House Science 
Committee, Chairman, Wexler 
and Walker, Public Policy 
Associates, Washington, D.C.    Professor, University of 
                                  Colorado, Former Chair, NASA 
                                  Advisory Council Science 
                                  Committee, Denver, Colorado

Mr. Andy Chaikin              Mr. Robert Cenker
Space Historian/Science 
Journalist, Arlington, Vermont  Former NASA Astronaut, East 
                                  Windsor, New Jersey

Mr. Keith Cowing              Mr. Tom Crabb
Former Payload Manager, NASA 
Space Station Program, 
Founder, SpaceRef 
International, Reston, 
Virginia                        President, ORBITEC, Madison, 
                                  Wisconsin

Dr. Peter Diamandis           Dr. Michael Drake
Chairman and CEO, X Prize 
Foundation, Playa Vista, 
California                      Head, Lunar and Planetary 
                                  Laboratory, University of 
                                  Arizona, Tucson, Arizona

Mr. Art Dula                  Mr. Edward Ellegood
CEO, Excalibur Almaz, Houston, 
Texas                           Former Director, Spaceport 
                                  Florida Authority, Director 
                                  of Aerospace Development, 
                                  Embry-Riddle Aeronautical 
                                  University, Daytona Beach, 
                                  Florida

Prof. G. Scott Hubbard        Prof. Millie Hughes-Fulford
Former Director NASA Ames 
Research Center, Stanford 
University, Dept. of 
Aeronautics and Astronautics, 
Palo Alto, California           Former NASA Astronaut, 
                                  University of California
                                San Francisco, California

Mr. Michael Joyce             Mr. Dale Ketcham
President & Founder, Next 
Giant Leap Google LLC Lunar X 
Prize Team, Boulder, Colorado   Director, Spaceport Research & 
                                  Technology Institute, Merritt 
                                  Island, Florida

Dr. John Logsdon              Mr. David Masten
Founder, Space Policy 
Institute, George Washington 
University., Washington, D.C.   CEO, Masten Space Systems Inc., 
                                  Mojave, California

Mr. Taber MacCallum           Mr. Robert Meyerson
CEO, Paragon Space Development 
Corp., Tucson, Arizona          Program Manager, Blue Origin, 
                                  LLC, Kent, Washington

Mr. Bill Mitchell             Mr. Brewster Shaw, USAF Ret.
Chairman, Environmental 
Tectonics Corporation/NASTAR, 
Southampton, Pennsylvania       Former NASA Astronaut and Vice 
                                  President and General 
                                  Manager, Space Exploration 
                                  Division, Boeing
                                Houston, Texas

Mr. Mark Sirangelo            Ms. Patti Grace Smith
Chairman, Sierra Nevada 
Corporation Space Systems, 
Former Chairman of the Board, 
Commercial Spaceflight 
Federation, Louisville, 
Colorado                        Former FAA Associate 
                                  Administrator, and Aerospace 
                                  Consultant, Washington, D.C.
Mr. George F. Sowers          Mr. Craig E. Steidle, Rear Admiral U.S. 
                                Navy, Ret.
Vice President for Business 
Development and Advanced 
Programs, United Launch 
Alliance, Denver, Colorado      Former NASA Associate 
                                  Administrator for 
                                  Exploration, U.S. Naval 
                                  Academy, Department of 
                                  Aerospace Engineering, 
                                  Annapolis, Maryland

Dr. S. Alan Stern             Dr. Kathryn Thornton
Former NASA Associate 
Administrator for Science, 
Niwot, Colorado                 Former NASA Astronaut, 
                                  Charlottesville, Virginia

Mr. Lee Valentine             Mr. Robert W. Werb
Chairman and Executive Vice 
President, Space Studies 
Institute, Mojave, California   Chairman of the Board, Space 
                                  Frontier Foundation, Nyack, 
                                  New York

Mr. George Whitesides
Former NASA Chief of Staff, 
President and CEO, Virgin 
Galactic, Los Angeles, 
California
    Mr. Rohrabacher. These credentialed experts are urging that 
NASA fully fund the use of commercial companies to carry crew 
to the space station because it is that in and of itself is a 
strategy that is critical for the Nation's success in our space 
efforts. Furthermore, they point out that funding of NASA's 
commercial crew program would lower the cost of low-Earth 
orbit, thus enabling more of NASA's budget to be applied to its 
focus on exploration beyond low-Earth orbit and better enabling 
the kind of program laid out in the NASA authorization bill.
    Let me note it makes no more sense today to have government 
employees being the ones who manage and operate and build all 
the space transportation vehicles than it would be if we said 
20 years ago or 30 years ago, no, I am sorry, all of the jet 
airplanes, all of our jet airliners, have to be built and 
operated by a government-run airline. No, we have reached a 
technological stage when indeed the private sector can plan a 
major role in reducing the cost of what it takes for government 
employees and government programs to operate.
    So I, number one, am one person I know at least on this 
Committee that sides with you and the Administration on at 
least trying to make sure that we maximize the benefit that the 
private sector can provide perhaps in partnership with NASA 
because that is what it is about.
    Mr. Bolden, the 2010 authorization painted a stark line 
between low-Earth orbit operations for which it demanded a 
commercial process and the exploration applications for which 
it relied on for the standard NASA development process. Does 
your budget request support this structure of having that line 
between those two approaches?
    Mr. Bolden. Congressman, I am not sure I fully understand 
the question, but I would like to say I have been unfortunately 
remiss in effectively articulating the connection among all the 
NASA programs. We are trying to get rid of stovepipes because 
we are trying to stay within the budget, fulfill our obligation 
to live within the elements of the 2010 authorization act and 
then when it comes to human spaceflight keeping our crews safe.
    The International Space Station as I mentioned earlier is 
the anchor for all future exploration. That is our moon right 
now. What is going on at the International Space Station with a 
full six-person crew and today an additional six plus one in 
Robonaut, in R2, that we are developing technologies, we are 
understanding science that we will need to send humans beyond 
Earth orbit. So it is the anchor.
    Mr. Rohrabacher. We also have a lot of investment in this--
    Mr. Bolden. Yes.
    Mr. Rohrabacher. But we are talking about an investment of 
money. How much money will be saved, for example, if we would 
rely on this private commercial transportation of crew to the 
space station and back as compared to if we simply kept the 
Space Shuttle going for another 10 years?
    Mr. Bolden. Congressman, I wish I could answer that 
question, but that would be pure conjecture because we haven't 
flown a single commercial crew flight yet, and I don't want to 
try to blow smoke. I don't know.
    Mr. Rohrabacher. Well, let me conjecture----
    Mr. Bolden. Yes, sir.
    Mr. Rohrabacher. --and I would conjecture that we are 
talking about saving billions and billions of dollars as 
compared to keeping the Shuttle going or developing other kind 
of craft only by a NASA program because at least these 
companies will be investing hundreds of millions of dollars of 
their own money. Now, how much money have private companies, 
and which private companies, have invested their money that is 
not coming from our budget. We are actually having people come 
in from the outside, releasing further money from NASA to do 
other things. How much money are we expecting from the private 
sector?
    Mr. Bolden. Sir, I will take that for the record, but I can 
tell you, I do know it is substantially more than we have paid 
in our fixed cost for the COTS program and we will pay in our 
fixed cost for the cargo resupply mission.
    So the private entities have already invested substantially 
more than we have. I will take it more for the record because I 
think your staffs were briefed earlier this week on some dollar 
figures, and they tried to give me that and I couldn't remember 
it so I said I would take it for the record.
    Mr. Rohrabacher. Thank you very much, General.
    Chairman Hall. At this time I recognize Mr. Clarke, the 
gentleman from Michigan for five minutes.
    Mr. Clarke. Thank you, Chairman Hall, Ranking Member 
Johnson. Administrator Bolden, thank you for being here.
    I have got a series of questions, and all of them relate to 
the impact of the proposed CR and the President's budget on 
NASA's ability to produce technology that can create jobs. And 
you know, I don't have any space centers or rocket 
manufacturers in the district I represent. I am from Detroit, 
and I represent metro Detroit. We do make cars. And back 40 
years ago NASA released some structural analysis program 
technology that auto manufacturers were ultimately able to use 
to make better front ends, to design better front ends, and 
steering linkages.
    Most recently, their research in advanced fuels and fuel 
technology I believe has a lot of potential to help us make 
better plug-in hybrid vehicles and alternative fuel vehicles. 
Essentially it is this, is that NASA technology has meant 
better automotive technology which means that Detroit is able 
to sell better cars and that creates more jobs for the people 
that I represent. What if any is the impact of the proposed CR 
and the President's budget on these types of initiatives that 
can be commercialized to create good jobs in our country?
    Mr. Bolden. Congressman, I don't want to speculate on what 
the impact of a potential CR would be, but in the President's 
budget, it will allow us to continue the technology and 
technological innovation that has always been the hallmark of 
this Administration.
    And if I may, I would suggest that you go back home and 
brag about Detroit's part in STS-133. Detroit is aboard STS-133 
in the person, if you will, of R2, Robonaut. Robonaut is a 
product of a three-year space act agreement between General 
Motors and NASA. It was done on our nickel and General Motors' 
nickel. It was not in anyone's budget, but it was exploration 
technology that came back from the old Constellation program. 
General Motors came to us and said we are having to pay 
hospital costs, injury costs, on our workers who are putting 
the rain panel into cars because they are having to exert so 
much pressure to put that panel in place. Can you help us? And 
together we started developing R2. R2 now, I don't know whether 
it is in operation yet on the GM production line, but the 
intent is that R2 will take the place of humans in doing some 
of this high-level maintenance reducing injuries. And General 
Motors continues their work in the SSA on the International 
Space Station now because R2 will be unfurled in the springtime 
and then will begin to do a series of evolutions that are both 
General Motors' projects as well as NASA's projects. So you and 
the people of Detroit are on board the International Space 
Station.
    Mr. Clarke. Well, thank you. That gives me more reason to 
support your agency and serve on this Committee.
    A couple questions I have deal with the refocus of your 
agency on commercial development and also the impact of the 
proposed cuts on NASA education programs. But just for a 
backdrop, you know the President recently said that our 
economic crisis was this generation's Sputnik moment, and 
decades ago when the Soviet Union launched Sputnik, that 
created huge public and political support for massive R&D 
investment that ended up creating a lot of economic development 
and spurred investment in education. A lot of people went into 
math, science and technology fields. Some of the investments 
Ranking Member Johnson noted in NASA resulted in technology 
that was applied to the manufacturing of calculators, the 
microchip and other technologies that we use in everyday life. 
How does your agency's reorientation, especially your focus on 
commercial development, really square with that long-term 
commitment to overall economic activity for our country?
    Mr. Bolden. Congressman, the President has said the Nation 
that out-educates wins. You will probably know that education 
is a passion of mine, and we have put serious investment into 
education through programs like the Summer of Innovation, that 
we piloted last year and will continue the next two summers.
    We now have an Office of Chief Technologist. His focus is 
on working with academia, industry and just general 
researchers. Trying to find innovative ways to bring value to 
our own economy, to grow our economy if you will. Those things 
are still covered in the President's 2012 budget, not to the 
extent that they were in the President's proposed 2011 budget, 
but still I think effectively covered--we have got to 
demonstrate that we can do what we say we can do.
    So while I would love to have more money for technology 
demonstrations, NASA has a history of promising a lot in 
technology demonstrations and then squandering the money. We do 
not intend to do that. We intend to work with centers like the 
Glenn Research Center, the Langley Research Center, Ames 
Research Center and others and actually bring some of this 
technology development to the forefront where industry and 
academia are participating. If you go out to Colorado where one 
of our competitors in commercial crew development program is 
building their rocket, they bring college students in, and they 
work alongside engineers. That is not NASA, but that is a 
commercial entity that is supporting NASA and the future of 
commercial spaceflight. They are bringing college students in 
to get them excited about being a part of this program.
    Chairman Hall. You know, in my brief 8 weeks as Chairman of 
this Committee, I have my first real problem. We recognize 
those who I am to call upon to speak for five minutes by the 
time they get here. There are two who got here at identically 
at the same time, Mr. Rigell and Mrs. Adams. Not only that, 
they sat down at exactly the same time, and knowing Mr. Rigell 
as a gentleman, Mrs. Adams is a very lovely lady, I am going to 
recognize Mrs. Adams for five or six or seven or eight minutes. 
Whatever she wants.
    Mrs. Adams. Thank you, Mr. Chair. Mr. Bolden, I want to 
commend you for your statement, the safety of our crew members 
is our priority, and I don't think you will see anybody in this 
Committee that disagrees with that statement.
    I am going to go back to the authorization bill and the 
budget request. NASA told Congress in January there was no way 
it could meet the 2015 flight schedule deadline for 
multipurpose crew vehicle and space launch systems, citing 
among other things, financial constraints. Based upon the 
request for $1.2 billion less for these systems than what was 
authorized by Congress. I am concerned that you are really not 
interested in meeting this deadline at all, coupled with the 
recent interview with your chief technologist, Mr. Robert 
Braun, he was quoted as saying that a new vehicle for NASA's 
spaceflight is, ``Let us call it, think about it as a decade if 
you want to put a timestamp on it.'' Is this your timetable? 
This is something I want to know. Is this what you believe 
Congress has authorized?
    And then the NASA authorization bill stated that the space 
launch system and the multipurpose crew vehicle should act as a 
back-up in case the commercial crew is not ready in time. And 
again, is this something you are pursuing? I want to state that 
when you were earlier speaking, you said that this would not be 
a productive use of the cost and time and ability of NASA, or 
something similar to that. And it struck me as interesting that 
you said that we would not use this as a capability of this 
vehicle.
    Mr. Bolden. Yes, ma'am. We would not want to use an 
exploration vehicle as a low-Earth orbiting vehicle because it 
would indicate two things had happened, one, we had either had 
a loss, a physical loss, of a low-Earth orbiting vehicle, 
whether it is Soyuz currently or whether it was an Orbital or a 
Boeing or a Space X or any other vehicle. It would mean that we 
had lost a vehicle and crew, and that would be why we would 
have to rely on a government back-up. I don't ever want to get 
to that day that I have failed in my effort to keep my 
astronauts safe if we have to rely on Orion or----
    Mrs. Adams. But shouldn't we have a back-up vehicle?
    Mr. Bolden. We should always have a back-up vehicle. We 
don't have one right now once I land the Shuttle in June. The 
multipurpose crew vehicle on a heavy-lift vehicle will serve as 
a backup to any system. I ideally would like to have two 
commercial----
    Mrs. Adams. And a timetable?
    Mr. Bolden. The timetable for this? The timetable for 
commercially available crew access is the 2015, 2016 timeframe, 
there are a lot of people who--that is dependent on. If you ask 
industry, I have been told by them that three years from the 
day they sign a contract, they will be able to fly a commercial 
crew to orbit.
    So the sooner I can get them through the early stages where 
we are now, the sooner we can sign a contract and make it 
possible for them to fly.
    Mrs. Adams. Since I only have five minutes, I want to get 
as many questions as possible----
    Mr. Bolden. Okay.
    Mrs. Adams. --because I have a lot of questions. On page 1 
of your testimony you state, ``The request supports an 
aggressive launch rate over the next two years with about 40 
U.S. and international missions to the ISS for science and to 
support other agencies.'' Can you please tell the Committee how 
many of those flights are NASA flights?
    Mr. Bolden. Those are all NASA-related flights.
    Mrs. Adams. NASA flights.
    Mr. Bolden. I will get back to you on that, ma'am.
    Mrs. Adams. Page 2 you outline the 2012 budget priorities 
for human spaceflight. Can you please tell the Committee where 
those priorities were developed, from the most recent 
authorization bill or sources or other methods?
    Mr. Bolden. The priority for human spaceflight has been on 
the record for a number of years as we developed the 
International Space Station. So since that is our only 
destination over the next ten years, that schedule is already 
laid out, relatively firm.
    Mrs. Adams. Through the authorization bill or----
    Mr. Bolden. Long before the authorization bill was even 
thought of
    Mrs. Adams. And you said something about global climate 
change, and I just wanted to ask you. I know that you 
referenced global change. That is not climate change?
    Mr. Bolden. Change in the climate is it could be global 
warming, it could be global freezing, it could be anything.
    Mrs. Adams. What is global change in your eyes then?
    Mr. Bolden. Change is what we are experiencing today. When 
you go out in the middle of the summer and it is blistering hot 
and you come in in the middle of the winter and it is the 
coldest winter you have ever felt, that is climate change.
    Mrs. Adams. But you have global change in your testimony. 
And so I am trying to determine, is that global----
    Mr. Bolden. Global climate----
    Mrs. Adams. --change or climate change?
    Mr. Bolden. The testimony probably says global climate 
change which says----
    Mrs. Adams. It says global change. That is why----
    Mr. Bolden. I will go back and check.
    Mrs. Adams. Thank you.
    Mr. Bolden. We missed the word
    Mrs. Adams. Thank you.
    Mr. Bolden. Yes, ma'am.
    Chairman Hall. Thank you. I now recognize Mrs. Fudge, the 
gentlelady from Ohio, for five minutes.
    Ms. Fudge. Thank you, Mr. Chairman. Good to see you again, 
Mr. Bolden.
    Mr. Bolden. Always good.
    Ms. Fudge. Administrator Bolden, as you know, I have many 
NASA Glenn employees in my district, as well as we have a NASA 
Glenn Visitor's Center. I am glad to see that the President's 
budget request includes a diverse portfolio of initiatives for 
Glenn that utilizes them as strength and core capabilities. 
However, I am concerned about anticipated shortfalls in the 
center management and operation funding at NASA Glenn.
    A continuation of fiscal year 2010 level funding as 
described under the current CR represents an $8 million 
reduction of what is being proposed for fiscal year 2012. I 
have been to NASA Glenn, and the one thing I am certain of is 
that this is a group of extremely hard-working and brilliant 
scientists who know how to achieve extraordinary things on a 
tight budget, but I am very concerned about the effects that 
cuts to the center management and operations will have on the 
contractor workforce and the facility's maintenance at Glenn.
    Could you please just discuss with me how you see these 
cuts impacting NASA Glenn if government continues operating 
under the CR and will it have similar effects on other centers?
    Mr. Bolden. Congresswoman, if I understood correctly, if 
you are talking about the amendment to the CR that took---
    Ms. Fudge. Yes.
    Mr. Bolden. --cross agency support out, I don't want to 
speculate on what would happen to any single center, and I 
really am going to violate my rule and I am not going to 
speculate, I am going to tell you what that amount of money 
equals. That amount of money equals a couple of NASA centers. 
So if in fact the Congress were to pass, you know, that CR, I 
would have to find a way to either stretch money around or--we 
are talking about the funds to run two NASA centers.
    Ms. Fudge. Correct.
    Mr. Bolden. But that is not what I expect to happen. As I 
said earlier, I expect that reasonable people can disagree and 
come to an ultimate agreement that is best for the Nation. And 
so we continue to expect that we will be operating at a 2010 
level through the end of fiscal year 2011 and then that we will 
work to reach an agreement on a 2012 budget that follows along 
the lines of the budget that was proposed by the President and 
I introduced two weeks ago, you know, that will fund NASA and 
allow us to do the things that you want us to do.
    Ms. Fudge. So that there is in fact still a commitment to 
make sure that when we have discussions about the fiscal year 
2012 budget that we were still talking about the same level 
that was proposed in the President's budget as we go forward?
    Mr. Bolden. Congresswoman, that is correct if I understand 
the question correctly. When we look specifically at Glenn, 
Glenn will do well under the proposed fiscal year 2012 budget, 
and I think you have had this conversation with Ray Lugo.
    Ms. Fudge. Absolutely.
    Mr. Bolden. And Ray is very conservative. Ray does not like 
to go out and brag about things for fear that someone will take 
them away. Ray understands, as do most of our center directors, 
that the money to the community does not come with a program 
office designation. The money to the community comes with 
projects and task orders through that program. So the fact that 
a center does--I don't have enough programs to make sure that 
every center has a program office. But it really doesn't matter 
to the people of the center. It may matter to people who are 
looking for titles, but to the workers in that community, it is 
really important that they get projects and task orders, and 
Glenn will do well.
    Ms. Fudge. Well, certainly obviously I am pleased with the 
2012 budget. I think that Glenn has done well as it relates to 
that budget, but if you look at fiscal year 2010, you are 
looking at $196 million to Glenn. In fiscal year 2012, you are 
looking at $204 million. So for the year of 2011, the effect of 
trying to move forward with projects knowing what is happening 
in 2011 that we are going to remain at this 2010 level, is a 
problem. It is a question. Let me not say it is a problem. Let 
me say that we need to understand better how we function at 
this fiscal year 2010 level knowing that there is much expected 
as we go into the fiscal year 2012.
    Mr. Bolden. Yes, ma'am. I agree.
    Ms. Fudge. Thank you so much.
    Mr. Bolden. Yes, ma'am. Thank you.
    Chairman Hall. Now the gentleman from Virginia, Mr. Rigell.
    Mr. Rigell. Thank you, Mr. Chairman, and Mr. Bolden, thank 
you so much for being here and providing your testimony. I 
certainly respect your military service and your bravery as a 
test pilot and now your service with NASA. I think it is a 
distinguished career.
    In your opening statement, you mentioned that there was, I 
think you characterized it as some concern about NASA's 
commitment to manned spaceflight or human spaceflight. I would 
say that doesn't capture my view. I am deeply troubled and 
really disturbed by it. I think the figure that you referenced, 
you said look, we are allocating 44 percent of our budget to 
human spaceflight. Well, I come to the exact opposite 
conclusion. That doesn't reinforce the idea that we are 
committed to human spaceflight. That number in my view 
indicates that we are not as committed as we were, nor are we 
as committed as we should be to human spaceflight.
    I see human spaceflight really as the essential DNA of 
NASA, and I would like for us to get back on a path of really 
investing in human spaceflight as quickly as we can. I think as 
you said, reasonable people can disagree over these matters, 
but I am here today to petition you and to move back in the 
direction of allocating more toward human spaceflight.
    We can talk about the proper allocation between commercial 
and actual NASA flights, but I still think we need to move in 
the other direction.
    You mentioned also in response to a question offered today 
that the savings of commercial spaceflight versus NASA human 
spaceflight, I believe, your response was, I don't know. It 
seems to me that that is an essential question that is really 
fundamental to some of the things that we are going to have to 
deal with here on the Committee. Would you please just expound 
on that answer a bit?
    Mr. Bolden. I am glad you asked the question because it 
gives me an opportunity to elaborate. When we talk about 
connecting all the aspects of NASA, the NASA portfolio, we 
cannot separate human spaceflight from science. Our science 
missions may in the future utilize the same launch vehicle that 
we use to launch astronauts into space. Today my science budget 
is under attack because of the rising cost of a launch vehicle. 
If I can find a way to get a cheaper launch vehicle, I can fly 
more science, that same launch vehicle that would take humans 
to low-Earth orbit.
    So the integrated advantage of going to commercial 
carriers, to adding competition to the mix, whereas today--if 
you look at Orbital Sciences, Orbital designed the Taurus II 
not to take humans to orbit. They designed it to meet a market 
that they saw being there which was for medium-lift rocket. 
They say that is where the science market is. That is the way 
that they targeted. We have done a little bit of conversation 
and some analysis of the market.
    So they are very comfortable. Whether they participate in 
human spaceflight or not, they have hit the target because that 
is where the market lies. If they can win in being one of the 
carriers for humans to low-Earth orbit, they have multiply 
magnified, you know, their profit. They have decreased the cost 
to orbit for me because now all I do is buy service. I don't 
operate it, I don't carry the infrastructure costs, and there 
is some debate now about how much I am really spending on the 
Kennedy Space Center. There is disagreement even among my own 
people. We spend a lot of money every day, every month, every 
year, just maintaining the infrastructure of the Kennedy Space 
Center, whether I fly a Shuttle or not. I am trying to get rid 
of that.
    Mr. Rigell. Well, on this point, I think we are in full 
agreement. I think that there is a place for a commercial role 
here, and I think that having--as a businessman who is now a 
representative in our Congress, I am instinctively drawn to the 
statement, you know, about competition and having companies 
compete here. But the question specifically is, and I think one 
that I would ask that you maybe circle back around and provide 
some more information for the Committee and for me in 
particular, is the ability to properly develop and answer to 
that legitimate question of what are the relative costs of NASA 
putting a human in flight versus the private sector. And I 
think that merits more exploration
    Mr. Bolden. Sir, I will get you that answer, and the word 
you just used, that requires more exploration, the reason I 
can't give you the answer is because exploration is just that. 
It is something that we pursue having no idea what we are going 
to find. If I looked at, you know, putting a dollar value on 
the A-Train, it is a five Earth science satellites that orbit 
Earth, near polar orbit, every day, you know, what is the 
dollar value on having the A-Train there to the people in Haiti 
many of whom were saved because one of the satellites revealed 
three areas of the country that were subject to landslides with 
the big Earthquake that we would have never found for weeks? 
What is the value on the people of the Gulf Coast for what came 
out of the A-Train to help us understand the Gulf Oil spill? I 
can't put a dollar value on that.
    So I appreciate your question and will try to get you an 
answer.
    Mr. Rigell. Thank you. My time is expired. Thank you very 
much.
    Chairman Hall. Thank you. Thank you, Mr. Rigell. I 
recognize the gentlelady from Alabama, Mrs. Sewell, for five 
minutes.
    Ms. Sewell. Thank you, Mr. Chairman. Thank you, Mr. Bolden.
    NASA's proposed budget indicates that there will be $138 
million for education initiatives, including the Space Grant 
and Minority University Research programs. These are valuable 
partnerships that exist in the State of Alabama where I am from 
for institutions such as the University of Alabama in 
Huntsville (UAH) and Alabama A&M and the University of Alabama 
at Birmingham (UAB) and University of Alabama. This is a 5.1 
percent decrease from the nearly $146 million for fiscal year 
2011. How will this anticipated decrease in funding impact 
these valuable educational initiatives? I, like you, are quite 
concerned about educating the next generation and would like to 
see those partnerships continue.
    Mr. Bolden. Congresswoman, like every other agency in the 
government and like every company in America, we are looking 
for ways to streamline the way we do business. Leland Melvin, 
who is my new Associate Administrator for Education, once 
chaired and now since he is the Associate Administrator, he 
oversees the work of an education design team within NASA. We 
have gone out and we are working with professional educators, 
colleges and universities, secondary educators, to determine 
how we can better implement our education program within NASA 
so that we get the same value that we get right now for less 
money.
    So the $138 million is a significant amount of money for 
our education efforts. We are also trying to collaborate much 
more with other agencies. We are working with the First Lady's 
White House initiative for things such as helping military 
families. An aspect of that is education for military families. 
We have content that we can offer that we don't spend another 
dime on. It is already there, whether it is talking to 
astronauts from the International Space Station. One of the 
best things I did when I was flying was we used to do something 
called SAR-X where you get on a ham radio and you talk to kids 
in schools. That is incredible, and that comes at almost no 
cost.
    So we are trying to find better ways that we can implement 
what we have at lower cost.
    Ms. Sewell. Great. The proposed budget for fiscal year 2012 
also provides $1.8 billion to help develop a heavy-lift 
vehicle, the SLS, that will launch the crew. Marshall Space 
Center in Huntsville, Alabama, will likely be a very major 
contributor in designing that heavy-lift vehicle. And in fiscal 
year 2012, the funding request for this project significantly, 
is it sufficient, I would say, to fully fund and sustain the 
development of the heavy-lift vehicle through 2016 which is the 
desired timetable, and are you committed to making sure that 
those funding levels stay about the same?
    Mr. Bolden. I am committed to try to make sure that the 
funding levels remain about the same, and one of the things 
that you will see in our congressional justifications is 
beginning in 2013 I have asked, and I think I have been 
granted--it remains to be seen whether the Congress will 
agree--that we put human exploration in one budget line so that 
as we go with the development of an evolvable heavy-lift system 
and a multipurpose crew vehicle, that we can move the funds 
around as necessary in each successive year so that we marry 
those programs up when we need them, that being the 2020 
timeframe is when we will need an integrated heavy-lift launch 
vehicle and crew exploration vehicle that can go beyond low-
Earth orbit. There may be available systems before that time, 
but I don't need one for beyond low-Earth orbit until 2020.
    Ms. Sewell. Thank you.
    Mr. Bolden. Yes, ma'am.
    Chairman Hall. Thank you. The Chair now recognizes the 
Chairman of the Space and Aeronautics Subcommittee, Mr. 
Palazzo, the gentleman from Mississippi.
    Mr. Palazzo. Thank you, Mr. Chairman. Thank you, Mr. 
Bolden, for being here, and like my colleague, Mr. Rigell, 
thank you for your 34 years of service to the Marine Corp. 
After seeing that you have been in Vietnam and had over 100 
missions, I doubt there is much that I can say or do to rattle 
you.
    Mr. Bolden. Just don't shoot me.
    Mr. Palazzo. Or shoot at you, right? Absolutely. I do have 
some questions for you, and one is you have often made the 
argument that access to low-Earth orbit is well-understood 
enough that we can turn this over to commercial providers. How 
can you be confident that the commercial crews and cargo is 
sufficiently mature enough to justify firm fixed contract, and 
if so, can you explain some of the significant delays in time 
and cost that are in the COTS and the CRS program today?
    Mr. Bolden. I am certain that commercial entities can 
deliver because in the past, if you look at the two that I am 
working with right now, at least one of them has been doing it 
for more than 20 years. Orbital has been delivering cargo and 
other things--well, not cargo, delivering satellites to orbit 
since their inception. And if I look at just one of the rockets 
that they prepare for us, Minotaur, which is a government 
rocket that we procure and surplus and then it is given to 
Orbital to prepare. They have 100 percent success rate with 
Minotaur launches. So I am not concerned about their ability to 
deliver.
    In terms of why have we had setbacks, we are now trying to 
take in some cases existing systems or emerging systems and 
certify them for human spaceflight. So the companies are trying 
to get as much information data as they can while they are 
doing the COTS and CRS programs that can be transferred into a 
commercial crew program so that it cuts down on the amount of 
time that they have to invest in development of techniques and 
procedures and the like for them. And like in a development 
program, they experienced setbacks.
    I give the example, and I will make it really quick----
    Mr. Palazzo. Okay.
    Mr. Bolden. If I had had a failure or a problem like 
Orbital had last December before they launched the Dragon 
capsule on Falcon 9, where they had a crack in an engine bell, 
I would still be sitting on the ground. We would not have 
launched. It took me four months to get Discovery off the 
ground successfully on STS-133 after we found a small crack in 
foam which revealed a structural problem we had in the external 
tank. Commercial entities do what we do, they just don't have 
the bureaucracy that we have.
    So we will learn from them, and we will be able to speed up 
the time--decrease the amount of time we have when we do 
experience a delay.
    Mr. Palazzo. And you know, we are going to be watching 
closely, so it would be nice to see if they can actually come 
in under budget, on time and within cost.
    Mr. Bolden. Yes, sir.
    Mr. Palazzo. Now, NASA has not always been forthcoming with 
details of its acquisition strategy for commercial cargo and 
has not shared their strategy for commercial crew, but the key 
to both has been to open with a Space Act agreement. Devoid of 
any meaningful checks and balances followed by an overlapping 
fixed price contract to the same contractors, it is hard to see 
how there can be a true, full and open competition for the 
fixed price contracts under those circumstances when Space Act 
selectees are already under contract. Why is NASA proceeding in 
this manner and why avoid using a traditional FAR acquisition 
process?
    Mr. Bolden. Congressman, we have not decided on the 
acquisition strategy yet. I have not approved it, so it is not 
that we are not being forthcoming, I am pushing my people now 
to get to the point where we develop an acquisition strategy 
for commercial crew. So the hold-up is us. It is not the 
commercial entities. They are asking for our acquisition 
strategy. We have given them what we call human ratings 
standards. We gave it to them in the draft form. They utilize 
that. We now have published human ratings standards, so we are 
making as much as we can available to the commercial entities 
as quickly as we can.
    Mr. Palazzo. Now as you know, Stennis Space Center is in my 
district, and as NASA moves forward with plans for both NASA 
and commercial activities, I want to know if there will be any 
impact on Stennis and their leadership in rocket propulsion 
test, and will Stennis remain the leader for NASA and 
commercial rocket propulsion?
    Mr. Bolden. We made an announcement yesterday that Marshall 
Spaceflight Center will be the home of the program office for 
the SLS, the space launch system. A sister center that used to 
be a part of Marshall and is now its own entity is the Stennis 
Spaceflight Center. Stennis is the Nation's center for 
propulsion test. It is where people go, and we are trying to 
encourage the commercial entities to come and fully utilize the 
facilities at Stennis, to a much greater extent than they do 
right now. And we are starting to get overtures from some of 
the commercial entities that say we really would like to come 
down and look at your facilities and perhaps use that.
    Ideally, everyone will come to Stennis to test engines. 
When I was there and you had been there the day before at 
Stennis, I went down for the test firing of the second AJ-26 
engine produced by AeroJet for Orbital. It was incredible. I 
mean, the morale of the people there was absolutely incredible, 
and they now have completed the test on two engines for a 
commercial entity that will now put those two rockets on the 
Taurus II that eventually will be Orbital's entry into COTS.
    Mr. Palazzo. And I have one last, brief question. Many NASA 
facilities are going to require upgrades to continue providing 
their mission for NASA's future. Are you committing to 
providing the necessary resources to upgrade the test 
facilities at Stennis?
    Mr. Bolden. I am committed to do that, and I think we have 
talked to you about the A-3 test stand. My commitment to 
complete the work on the A-3 test stand is an example.
    Mr. Palazzo. Thank you, Mr. Bolden.
    Chairman Hall. Thank you. I now recognize the gentleman 
from California, Mr. McNerney, five minutes.
    Mr. McNerney. Thank you, Mr. Chairman. Mr. Bolden, thanks 
for coming and testifying this morning. This is certainly an 
issue that I think everybody is interested in in this country, 
space exploration, spaceflight and so on.
    I had the opportunity to visit the SpaceX reception here in 
DC a couple weeks ago. Apparently they sent up a vehicle that 
launched, orbited and reentered successfully. What is your 
assessment of that mission? Was it very successful?
    Mr. Bolden. Awesome, in one word. You have to understand 
what the significance of that was. Only three nations up until 
now, and there are many who want to be able to do this. India 
is one. The three nations are China, Russia and the United 
States that have successfully launched something from the 
planet, put it into orbit and then safely deorbited and then 
recovered it intact. The fourth entity to do that became SpaceX 
in December when they launched Falcon 9 and Dragon. I did not 
go, but I understand what you saw was the Dragon capsule that 
had been pulled out of the Pacific Ocean, and you could tell 
for yourself what condition it was in. Their intent is for it 
to be a reusable capsule. That is why it was awesome.
    Mr. McNerney. I know that some of these questions have been 
asked before, so I am just going to sort of run over them. You 
expect this sort of mission to be more cost-effective than NASA 
could do it for reasons that you mentioned. How about compared 
to Russia or some of the other countries that we have heard 
NASA may use once the space Shuttle stops operating?
    Mr. Bolden. We will continue to use the Soyuz spacecraft to 
get our astronauts to and from the International Space Station 
since we have done since the Columbia accident.
    My hope is that as soon as possible we will finally have 
American-made rockets by American-made companies that will be 
available to take our astronauts back and forth, do it safely 
and efficiently. And so that is why I made the tough decision 
to take some of the funding away from heavy lift and MPCV and 
put it toward commercial development because I have to have a 
way to get my crews safely to the International Space Station 
as soon as possible. I don't think anybody on this Committee 
wants to have to rely on the Russians but they are an 
incredible partner. They have been with us through thick and 
thin. They rescued us after the Columbia accident and until we 
were flying Shuttle's again. They took our crews back and forth 
to space and they continue to do that. I don't want to have to 
do that forever. I want to have American-made rockets and 
American-made capsules that take our crews to low-Earth orbit, 
and I have been ineffective in explaining the critical value of 
making that possible as soon as possible.
    I don't have enough money to give them to bring it in--I am 
trying to buy down the risk on that. Every dime I can put 
toward that effort buys down the risk.
    Mr. McNerney. You know, I was in industry before I came 
here, and I understand the importance of having multiple 
suppliers because if you just have one, they are going to--you 
are at their mercy. What is the prospect for having multiple 
private companies in this country capable of carrying out these 
missions, these transportation missions?
    Mr. Bolden. I will give you my guess, and that is only a 
guess. And with all due respect to everybody on this Committee, 
I don't run a company. I have never run a company. But I talk 
to people who run companies, and they have boards that they 
have to convince that it is worth the investment. And so I 
think some of my industry partners are still back here. They 
will tell you, they have had to fight to convince their boards 
that what we are about to do is worth the risk. It is a big 
risk for these companies, and they have convinced their boards 
that they need to put assets against it and I am going with 
them. I think they can do this.
    Mr. McNerney. Are there foreign companies doing the same 
thing?
    Mr. Bolden. There are foreign companies that are teaming 
with American companies in everything we do.
    It is hard to find any industrial effort today where people 
are not teaming with international partners. The President's, 
our own space policy, emphasizes the importance of teaming with 
international partners. The Hubble Space Telescope, which I 
helped deploy in 1990, would have never been possible without 
the cooperation of the European Space Agency as a partner. The 
solar rays came from the British Aerospace.
    Mr. McNerney. So the last question I have then is are there 
going to be any restrictions on these companies in terms of 
carrying out commercial missions that may have some harm to our 
national security?
    Mr. Bolden. There are always restrictions, and that is 
where you have to help me. I am not sure which committees you 
are on, but the Secretary of Defense, the Secretary of State, 
the President, all of us are pleading for help from the 
Congress in streamlining the export/import laws so that we 
don't continue to penalize American industry. You hurt NASA 
because I have to rely on my industry partners. When they are 
held to very strict standards under the Iran, North Korea, and 
Syria Nonproliferation Act (INKSNA) and you name it--they could 
give you a whole list of import/export laws, there is a happy 
medium somewhere and we are not there right now. We have driven 
business offshore, and we have got to get it back. Just having 
commercial launch services available is not going to bring the 
business back. We have got to make some changes in our export/
import laws.
    Mr. McNerney. Okay. Thank you. Thank you, Mr. Chairman.
    Chairman Hall. Thank you, and the Chair recognizes now the 
Chairman of Research and Science Education Subcommittee, Mr. 
Brooks, the gentleman from Alabama, for five minutes.
    Mr. Brooks. Thank you, Mr. Chairman, Mr. Bolden. Mr. 
Bolden, were you aware that a couple of weeks ago when the 
House was debating a continuing resolution for this fiscal year 
that there was an amendment proposed to cut roughly $300 
million from the NASA budget and divert that to the COTS 
program?
    Mr. Bolden. Oh, yes, sir. I am very much aware of that. We 
talked about it quite a bit.
    Mr. Brooks. And what harm would be done to NASA if any by 
the diversion of this $300 million if it is left to stand in 
the Senate?
    Mr. Bolden. Congressman, you know, if we talk just about 
that amendment to the provision and nothing else, I might be 
able to give you an answer but because I don't know what is 
going to be the final result of the CR, it would be conjecture 
for me to guess. There may be some offsetting adjustments made 
in the final CR that puts all that money back. So I don't want 
to run the risk of guessing on something that is not there yet.
    Mr. Brooks. Well, as it stands right now, would the loss of 
that $300 million adversely affect NASA's capabilities?
    Mr. Bolden. I think I answered a little bit earlier, that 
amount of money--I think what you are asking is that amount of 
money is a couple of NASA centers, maybe, you know, in terms of 
day-to-day operations.
    Mr. Brooks. I am a freshman, but that sounds pretty 
significant to me. Would you agree that that is a significant 
adverse effect?
    Mr. Bolden. That would be a significant adverse effect, but 
again, I am not going to speculate because that is a decision 
that has not been made by the Congress yet, you know, the House 
has passed and the Senate will still have a say. So you are 
asking me to guess on something that the other house of this 
Congress is going to----
    Mr. Brooks. Well, I am not asking you to guess about what 
the Senate may or may not do. I am asking you to testify 
whether there is an adverse effect from what the House's 
position has been, and that is the loss of $300 million to 
NASA. Do you have a position?
    Mr. Bolden. Sir, there is always an adverse impact about 
any decrease in funding. If I look at the effect on 
contractors, I am told that that is about 4,000 contractor 
jobs. So that is an adverse impact.
    Mr. Brooks. Given that kind of adverse impact on NASA, what 
effort did either NASA or the White House undertake to 
communicate that adverse impact to congressmen before they 
voted in order to help protect the NASA budget?
    Mr. Bolden. I don't know what effort the White House made, 
and I just know that whenever we came to the Hill and were 
asked about it, we generally said it would have an adverse 
impact but we tried not to second-guess what the Congress was 
going to do as we always try to do.
    Mr. Brooks. Well, I am not aware of any effort by NASA or 
the White House to communicate any kind of adverse impact to 
the Members of the House of Representatives from the diversion 
of $300 million from NASA to a local police and deputy program. 
Are you aware of any effort by the White House or NASA to 
communicate that to House Members before the vote?
    Mr. Bolden. Congressman Brooks, I am not personally aware, 
but let me take it for the record, and I will get back to you 
on any actions that our folk took because we have been up here 
over the last several weeks or months, and I will find out for 
you.
    Mr. Brooks. Well, I am pleased to report that 70 percent of 
the Republicans in the House tried to protect the NASA budget. 
Unfortunately, 83 percent of the Democrats tried to undermine 
the NASA budget by diverting the programs to a local police 
officer program which I would submit is not an essential 
function of the Federal Government, while NASA is a function of 
the Federal Government. So I would appreciate anything you can 
do in the future to try to help communicate to House Members or 
Senators as the case may be when these kinds of amendments come 
up that can have that kind of adverse impact on NASA, on 4,000 
contractors and their jobs, or two NASA centers as you just 
brought up.
    Moving onto a different matter, going back to April 15, 
2010, the President made public remarks at the Kennedy 
Spaceflight Center that suggested the moon was no longer a 
destination for future manned missions when he said, ``The 
simple fact is, we have been there before. There is a lot more 
space to explore.'' However, in looking at your comments today, 
I am thankful that on page 2 of your official statement you 
mention that the moon is a target. Is that correct?
    Mr. Bolden. Sir, the moon is a continuing target for NASA. 
We have ongoing missions to the moon all the time, so lunar 
exploration remains in our portfolio.
    Mr. Brooks. What is the targeted date for landing on the 
moon?
    Mr. Bolden. A human landing on the moon?
    Mr. Brooks. Yes, sir.
    Mr. Bolden. We don't have a target date for a human landing 
on the moon because at present that is not one of the missions 
that I think is essential for us to be able to do.
    Mr. Brooks. So if I am clear on this, we are planning on 
sending scientific instruments, but as of now, NASA has no 
plans to have any human space activity on the moon?
    Mr. Bolden. I have no plans that I have brought forth to 
the Congress or anyone. That does not say what is going on 
inside the agency does not include human lunar missions. You 
know, we are developing a lunar rover right now that would 
completely do away with any need for habitats on the surface of 
the moon.
    So we are always looking at where we can go in the future. 
That is a part of being prepared to do exploration.
    Mr. Brooks. Well, my time is expired. Thank you for your 
assistance.
    Mr. Bolden. Thank you very much, sir.
    Chairman Hall. Thank you. And Mr. Chairman, if you are 
short of people that you want to send to the moon, I got 
several in my district that I would like to volunteer for you.
    Next we will have the gentlelady, one of my very favorites, 
from California, Ms. Woolsey----
    Ms. Woolsey. Thank you.
    Chairman Hall. --for three minutes or five minutes.
    Ms. Woolsey. Thank you, Mr. Chairman. Last week I had the 
privilege of attending a conference on the subject of energy 
security, and it was bipartisan, bicameral, and it was clear in 
our discussions with scientists and experts that the decision-
makers in our country, which is all of us and others, have to 
come to terms with climate change. You can call it global 
warming, climate change. And so I want to go on record and have 
always been one that is willing to talk climate change and know 
that we have to start addressing it and doing something about 
it, and I appreciate that NASA's view of the Earth is going to 
be very helpful in that regard.
    And that leads me directly to what I want to talk about and 
that is about being educated and having the right support in 
order to be able to do what you need to do as an agency. 
President Obama has set a goal of recruiting 10,000 teachers in 
the STEM fields. He calls these subjects essential to competing 
in the 21st global economy. Yet, his proposal for his budget 
drastically cuts funding for NASA's education programs 
including the STEM education programs.
    So I ask you, how are we supposed to increase participation 
in STEM if we are cutting the very programs that foster 
interest in STEM in the first place, and how are you, how is 
your agency adjusting to this? You need those smart people.
    Mr. Bolden. Congresswoman, the difference between what you 
see in the 2012 budget and what you saw in previous budgets is 
actually the result of action on the part of, thankfully, the 
Congress. The proposed amount of funding for education from 
this Administration has been consistent, and it usually is at 
about the $140 million level each year, give or take. And that 
has been consistent. But what happens, thankfully, is that the 
Congress usually ads money back onto that. So if you say that 
we have cut spending on education, we didn't cut it. We didn't 
add back in what the Congress chose to put on in previous 
years, if that is not too confusing.
    Ms. Woolsey. Well, it is not confusing because we work 
very, very hard to get that additional funding for STEM. And 
Chairman Gordon was a leader in it, and he worked with Chairman 
Hall when they were in reverse positions and really made 
something positive happen for NASA and for STEM programs.
    Mr. Bolden. Yes, ma'am. And Congresswoman, as I mentioned 
before, our focus is on STEM education. The Summer of 
Innovation targets middle school children and most importantly 
their teachers because we want to make middle school teachers 
very comfortable with teaching math, and science. We want them 
not to run away from it. That pilot program last year we 
understand was very successful. If we can reach 1,000 teachers, 
multiply that times the number of students in a classroom. So 
that is our big focus.
    The design team that we put in place is trying to, as I 
mentioned to Congresswoman Sewell, I think I can do a better 
job with $138 million than we have done in the past because we 
are going to take the recommendations from the design team and 
we are going to redo the way that we do education in NASA. 
People will have to trust us, though, because if everybody 
makes me go back to doing education the way I have always done 
education, it is $138 million and we will get the--you know, 
insanity is doing the same thing over and over and assuming 
something is going to be different. If somebody makes me spend 
my $138 million exactly the same way year after year, I can't 
have any effect.
    Ms. Woolsey. Well, one of the recommendations I would have 
is, in reevaluating your programs, that you put an extra effort 
into women and minorities joining the STEM fields.
    Mr. Bolden. That is a point of emphasis for us. We are 
active on the President's Council on Women, you know, 
everywhere. I have three granddaughters and a daughter. I have 
a son, too, but I try to take care of the women in my life, so 
education of women and minorities is pretty important since I 
happen to be one.
    Ms. Woolsey. Well, therefore, they can take care of 
themselves if they----
    Mr. Bolden. I want them to take care of me years from now 
and so----
    Ms. Woolsey. That is right. I got it.
    Mr. Bolden. --they need to be very well-educated and they 
need to be astronauts and doctors and engineers.
    Ms. Woolsey. Thank you very much.
    Chairman Hall. I thank the lady, and I recognize 
Congressman Hultgren from Illinois. I got a chance to know 
Randy very well. He accompanied me to watch the Discovery 
launch, what, last week. Thanks for that. I recognize you for 
five minutes.
    Mr. Hultgren. Thank you, Chairman Hall. Administrator, 
thank you so much. I'm hiding in the corner over here. But I 
just wanted to say I really appreciate you being you here. It 
really was a privilege to be down for the launch with Chairman 
Hall and other Members of the Committee last week, and to steal 
or borrow one of your words, it was awesome. So it was great, 
and it really was helpful for us. Everybody there was so 
informative in really helping us understand the mission, and I 
was so excited to be a part of that. So thank you for your 
work.
    I want to shift gears just quickly. Oftentimes we wear 
different hats here, and I want to get your perspective on 
something. I also sit on the Transportation Committee, Aviation 
Subcommittee. One of the areas that we have worked on and 
talked about pretty significantly is NextGen, looking at Next 
Generation Air Transportation System. I know NASA has had a 
significant part along with other departments as well, and I 
just wanted briefly to get your thoughts on NextGen, some of 
the work there as a key partner along with the FAA, Defense 
Department, other federal agencies. What does NASA see as some 
of the biggest challenges confronting NextGen and from your 
perspective, how do you feel like this multi-agency 
collaboration is going? What can we do to improve that, to make 
sure that lower space travel is going well?
    Mr. Bolden. Congressman, NextGen is incredibly important to 
this Nation, and I am thankful you asked the question and I 
will try not to take all your time, but I could talk forever 
about this.
    NASA is heavily involved in NextGen. If you look at what we 
have done in terms of aircraft safety with the Next Generation 
Transportation System development, and if you look at the 
descent and arrival profiles that are being worked on with the 
FAA and DoD, we actually, through Langley Research Center and 
Ames Research Center, have designed some of the software and 
the programs that now have allowed us to go through some actual 
demonstrations of constant descent, constant climb-outs. United 
Airlines and Continental were participants in tests that we did 
at Denver over the last few years. Those have all proved that--
we are talking about hundreds of thousands of gallons of fuel 
saved.
    My aeronautics budget is $588 million or something like 
that. Somebody asked about giving them a cost benefit. If I 
look at the amount of money that the airlines will save just 
through some of the work that came from NextGen, new airplanes 
and engine designs that we participated in, the estimate is one 
percent of the savings to the airlines will pay for my 
aeronautics budget. If I could find a way if you all could 
devise some system such that industry put money back into us 
when we help them realize savings, then all of our jobs would 
be a lot easier. But one percent of the projected savings from 
some of the work that NASA has done in NextGen would fund my 
aeronautics budget.
    Mr. Hultgren. Well, I want to thank you for that, and I 
agree with you. I think that is part of our job, is to get that 
message out there and to see that although it was great to be 
down there last week, that there is so much more that NASA is 
doing that we all appreciate and see the benefit from. Many of 
us are frequent air travelers coming back and forth to 
Washington, DC. My district is just west of Chicago, so I think 
I have got the highest number of folks who are helping to make 
sure that our skies are safe, who help with air traffic control 
with O'Hare, one of the busiest airports in the world. So I do 
appreciate your work there.
    I think we have to keep telling that message of the work of 
NASA and collaboration that is happening, the savings that we 
see and the better environment that we have, the cost savings 
that are there. And the thing I am most excited about is the 
safety, where it is has been over two years now since we have 
had a fatality with commercial airlines. So we need to continue 
that record, and I just again want to say thank you for the 
work that you are doing, and hopefully we can tell that story 
of how collaboration does make our lives better and save so 
much money into the future. So thank you so much.
    Mr. Bolden. Sir, I thank you for the question and I would 
just ask if you would keep asking aeronautics questions, I 
don't get very many of them, and I would really like to tell 
our aeronautics story. But we get caught up in human 
spaceflight. If we can do what you say, aeronautics covers 
everything right up to the edge of the atmosphere. It is the 
way we get into space, and it is the way we come back. 
Hypersonic aeronautics is entry. It is what SpaceX learned how 
to do to bring the Dragon capsule back. So that is aeronautics. 
Everybody has got to come back to Earth some time. Thank you.
    Chairman Hall. That is exactly five minutes. Well done. And 
to the very patient, Mr. Sarbanes, from Maryland, I recognize 
you for five minutes.
    Mr. Sarbanes. Thank you very much, Mr. Chairman. Thank you 
for being here today and for your testimony.
    I am a new Member to the Committee, and it seems it is 
common practice to let NASA know if you have a facility in your 
district, so I will present by credentials by saying that I 
have the Applied Physics Lab in my district in Howard County, 
and they do tremendous work, particularly with respect to deep 
space exploration which I know is one of the areas that is 
funded by NASA, so I hope to learn more about that particular 
relationship.
    I am also new to this discussion on commercial spaceflight. 
It is a pretty fascinating one. I understand the broad 
implications, and we have a lot of different perspectives in 
the mix. I had this past weekend the opportunity to spend a 
fair amount of time with Peter Diamandis who founded the X 
Prize, of course, and he really gets you going with his vision 
of things and he has obviously been very involved in this.
    I was hoping you could--and again, I apologize because I am 
getting, you know, this is a curve for me, but with respect to 
the commercial spaceflight and the costs associated with it, is 
there a way you could just describe kind of the baskets that 
those costs go into? So in other words, I understand there is a 
cost associated with making certain NASA facilities available 
for, I guess, co-development of the technologies that will help 
promote commercial spaceflight. I gather that once those crews 
are in place that NASA will have costs associated with renting 
space or seats on those flights. And there must be other 
dimensions of being a partner in the development of the 
commercial spaceflight program that represent part of the 
expenditures that you lay out.
    So I was wondering if you could just talk about the broad 
baskets that those costs go into, and then the extent to which 
some of those represent kind of transitional costs in effect 
launching the commercial spaceflight program as opposed to 
ongoing costs that NASA will incur with respect to commercial 
spaceflight, you know, over time.
    Mr. Bolden. If I go back to the very beginning of our 
efforts, the COTS program, the Commercial Orbital 
Transportation System, which is just getting cargo to orbit, 
that was a Space Act agreement with a defined amount of money, 
like a fixed-price contract for all intents and purposes. NASA 
paid a certain amount--as milestones are met by the two 
participants. The two companies were SpaceX and Orbital. And so 
through the completion of a COTS, we will pay them a pre-
determined amount of money for each milestone they meet. When 
we move into the CRS which is cargo resupply portion, that is 
where we get into a contractual arrangement, and we have made 
contractual arrangements with those two companies since again, 
they were the winners. So they get paid again as they meet 
certain milestones. But once they start delivering cargo for a 
set price we will buy the ride to the International Space 
Station or wherever else we take it.
    When you get into commercial crew, that is the area that 
has some vagueness right now because those prices are not yet 
determined. There are things that need to be determined. I have 
to present to industry a procurement strategy. That is what we 
talked about a little bit earlier, an acquisition strategy. 
That is what we have not fully developed yet. Once we have a 
fully developed acquisition strategy, we can sit down with the 
competitors and say, okay, here is what we are going to do. 
These are the types of contracts we are going to use, whether 
it is Space Act agreements, fixed-price contracts, cost-plus, 
you name it, and here are some of the requirements that you are 
going to have to meet. We can then sit down and say, okay, what 
is NASA's percentage of investment in this enterprise? Once we 
decide what that is, then I will have essentially a fixed 
price, a cost----
    Mr. Sarbanes. Let me ask another question. My time is about 
to expire, and I don't want to go beyond the allotted time if I 
can help it.
    There is a lot of focus on NASA helping to support and 
develop commercialization with respect to human spaceflight. 
But what are some other areas of what NASA does where you see 
this kind of commercial partnering effort going on that maybe 
you don't get to discuss so much?
    Mr. Bolden. The ones that don't get discussed are the ones 
we do all the time. And just before you came in, we were 
talking with the representative from Detroit. Robonaut 2, R2, 
is a humanoid robot that is now on the International Space 
Station. It was taken there by Discovery last week, STS-133. R2 
is the result of a collaboration and a Space Act agreement 
between General Motors in Detroit, and I will get in trouble 
because they will say it was, well, General Motors in Chicago, 
but General Motors, the automobile manufacturing arm of General 
Motors, and NASA where General Motors needed a robot that could 
relief some of the problems they were having with injuries to 
workers. NASA needed a robot to help offset some of the risks 
to spacewalk crew members, things that a robot could do that we 
wouldn't even have to send an astronaut outside to do. That is 
one example.
    There are a number of examples like that where we have done 
it on a shoestring because it is technology development. We 
turn a few guys loose in a laboratory somewhere around the 
country, and they go off and pick an industrial partner and 
develop something that comes into play. How many of them are 
successful? I couldn't tell you. Most of them don't work, but 
that is the good part about it. Scientists and engineers love 
it because they bring college kids in.
    We have something now called Small Sats or Micro Sats. 
Colleges and universities around the country, even secondary 
school kids now are getting involved in Small Sats or Micro 
Sats. It is something that NASA and DoD developed and now we 
utilize to try to reach kids and help them understand that 
they, too, can participate in space exploration from their 
classroom. So these are all good things.
    Mr. Sarbanes. Thank you very much. Mr. Chairman, I yield 
back. I have no more time, thank you.
    Chairman Hall. He is right on the dot. At this time I will 
recognize a very, very patient Mr. McCaul, the gentleman from 
Texas.
    Mr. McCaul. Thank you, Mr. Chairman. I have been sitting 
here patiently, and I assure you, next time I will arrive 
before the gavel comes down.
    Chairman Hall. You know, when I was first up here 30 years 
ago, I was the second one here always. I didn't want to wait 
until the end to talk.
    Mr. McCaul. I guess I will close out the proceedings, 
possibly. I plan to attend the April Shuttle launch, and I 
think that is going to be a historic mission. I know Gabby's 
husband, Mark, will be leading that effort. And you mentioned 
her in your testimony very affectionately. I think we all look 
forward to the day that she will be serving back on this 
Committee, and there is no greater champion for the human 
spaceflight program than Gabby. And I remember working with her 
on the reauthorization. She was obviously opposed to the 
President's decision to cancel the Constellation program. One 
of the last conversations I had with her, in fact, the last 
one, was we were walking onto the House Floor just a day or two 
before the tragic event, and she talked about NASA. She was 
just a staunch advocate for the human spaceflight program, as 
am I.
    I represent a district that was once held by Lyndon 
Johnson, and on the Houston end of my district in the suburbs, 
I represent many Johnson Space Center employees and 
contractors. I know in our reauthorization we restored a lot of 
funding for human spaceflight in spite of this Administration's 
attempt to kill that, and I guess as you present this budget 
and as I go back home to my district, they will want to know 
what is their future? So I guess what I am asking you is what 
am I to tell them when they ask me about contracts related to 
human spaceflight, about the future of human spaceflight 
program. And I know these are some of your dearest friends. But 
what am I to tell my constituents who are part of the Johnson 
Space Center?
    Mr. Bolden. Congressman, you should tell them that the 
future of human spaceflight is bright and robust and that we 
need their help in rapidly developing new systems so that we 
can go explore.
    This Nation has not ventured beyond the moon with humans. 
We have been saying we were going to do it forever. I get 
chastised when I talk about wanting to go to Mars. I want to go 
to Mars. When I came into the astronaut office in 1980, I 
thought I would fly on the Shuttle a couple of times, and then 
I would be among those that would be returning to the moon, and 
then Challenger happened. And my dream of ever going to another 
planet went away.
    I don't want that for my grandkids. So I need their help. 
We have got to develop commercial capability to get to low-
Earth orbit so that we can continue to support the 
International Space Station. That is our moon right now. That 
is where we do technology development. That is where we do 
medical research. That is where we do things to make life 
better on Earth.
    Contrary to what people think, NASA doesn't do stuff just 
for astronauts. Most of what we do is returned to Earth in 
terms of benefits for humankind. And I can go down that you all 
can do it yourselves. You can look at an EMT ambulance that has 
the developments that were put in place for the Apollo program. 
Wireless communications. Congresswoman Johnson listed a whole 
bunch of them in her opening remarks.
    The Nation needs to become unafraid of exploration. We need 
to become unafraid of taking risks. Is it a risk to go with 
commercial entities? For me, no more risk than anything else 
because I have always--every rocket I have flown on, and I have 
only flown on three, four times but three, was built by a 
commercial entity. It was Rockwell when it started and when I 
finished, I think it was Boeing maintained by U.S.A., United 
Space Alliances.
    Mr. McCaul. If I could ask one last because my time is 
running out. I appreciate your passion. I know you are very 
passionate about returning to the Moon. I would hope that I 
could work with you in terms of restoring the morale at some of 
the employees at the Johnson Space Center and assure them that 
there is a bright future ahead. And I think we in the Congress 
have a responsibility to make sure you have the resources to do 
this.
    You mentioned in your testimony, if I am correct, that it 
would be 2030 before we could get back to the moon. You know, 
it has been 42 years since we landed on the moon. President 
Kennedy set the goal by the end of the decade, and less than 
ten years we were on the moon in 1969. I think a lot of people 
wonder why now it would take almost 20 years to get back to the 
moon. Most Americans, they don't understand we landed there so 
long ago. Why has it taken so long to get back? Because like 
you, I agree with the--and you are very passionate about it--
with the goal that eventually we are going to have to go back 
to the moon and beyond. So perhaps if you can explain that to 
me and the American people?
    Mr. Bolden. Congressman, I need to correct one thing. It 
would not take us until 2030 to go to the moon. If we decided 
that we wanted to go to moon and put humans there, that 
potentially could be done by the end of this present decade, 
but that is not one of the targets that has been produced 
either by the Congress or the President. What has been set 
forth as targets are 2025 to an asteroid and then the 2030s to 
be able to get to Mars with a follow-on landing. The reason we 
have not been there is because that has not been a goal of the 
Nation, and you know, we were content to stay in low-Earth 
orbit, which is hard. But it has not been something that the 
Nation thought was important.
    Mr. McCaul. Well, no, the prior Administration, President 
Bush, did set that as a goal, the moon, Mars and beyond. So I 
think that was at one point in time the goal for NASA. And Mr. 
Chairman, I hope we can work together to perhaps restore that 
vision and that goal in the Congress which I think is so 
vitally important and I know, Administrator, you agree with. 
With that, I yield back. Thank you.
    Chairman Hall. I thank you, and if the Ranking Member would 
have a final question for the Administrator, please?
    Ms. Johnson. Thank you, Mr. Chairman. And Administrator 
Bolden, thank you very much for your time here and your passion 
and your interest and your ability. It is extraordinary that 
you are sitting there defending the President's budget. I think 
it is grossly inadequate, and I hope that we can help a little 
bit. I know that I heard the gentleman I think from Mississippi 
mention that we had no aviation deaths the last two years. I 
know that you know why. We have got those satellites that are 
predicting weather and making sure that even farmers know when 
a drought is coming and whether for food supply and what have 
you. Do you know the condition of those satellites?
    Mr. Bolden. Congresswoman, I will get back to you on 
specific satellites and their life expectancy. Most currently 
on orbit have outlived their planned lifetime. We tend to not 
remember that our technology is such that we always build 
things that last a lot longer than we thought. When we ought to 
be thinking about obsolescence. And so we are behind as a 
Nation in providing Earth science satellites, those that can 
supply weather and the like, not only for civilian use but for 
the Department of Defense. You talk about trafficability. My 
son is a Marine, and if he is on the ground, he needs to know 
what the soil is going to be like before he goes somewhere. 
That comes from satellites. And so we owe it to these young men 
and women who are doing things for us to provide them with 
satellite systems that are reliable, and we are behind.
    Ms. Johnson. Thank you. One final question. I know that 
NASA had something to do with helping to rescue those miners in 
Chile. Could you explain that?
    Mr. Bolden. I could explain that. I love it. It has nothing 
to do with NASA, no intent, whatsoever. No one in NASA ever 
dreamed that we would be able to do what we did, but when we 
learned of the Chilean miners, the 33 who were trapped were 
still alive, a number of our NASA employees from around the 
country, three doctors and one engineer, had asked if they 
could go down to Chile and just ask around, see what needed to 
be done. And they started finding that, okay, we need to find 
ways to get food to these people. We need to determine what is 
needed to keep them alive for the months that we originally 
thought they were going to be down there. When we bring them 
back to the surface, how do we triage them, how do we get them 
back to normal. What we used was all the lessons we have 
learned from flying on MIR, the International Space Station, 
and all the way back to Skylab days.
    So we put to work the lessons that we had learned in 
exploration, things we never thought about. One of our 
engineers from the Langley research center who was a Navy 
submariner got together with a Chilean submariner who happened 
to be an engineer on the project, and the two of them led the 
team that designed the capsule that brought all 33 miners back 
to the surface, plus the additional five or six that went down 
to stabilize everybody.
    So that is one of the most phenomenal success stories that 
excited the President because nobody ever dreamed we would do 
that. Same thing with the Earthquake in Haiti, same thing with 
the Gulf oil spill. NASA is sort of the Marine Corps of the 
science and aeronautics community. We are the most ready when 
the Nation is least ready.
    Ms. Johnson. Well, thank you very much, and I think that 
the life of NASA depends on the life of our Nation. Thank you.
    Mr. Bolden. Thank you very much.
    Chairman Hall. Thank you. Those are the things that should 
be better known to school children and everybody else that has 
ill words for the work of NASA.
    I thank you, Mr. Bolden, and I thank you for your very good 
testimony, and the Members of the Committee will have 
additional questions maybe for you and ask you to respond to 
those in writing. The record will be kept open for two weeks 
for additional comments from Members as Mrs. Johnson I think 
has suggested she has some comments she wants back. So you are 
excused. I really do thank you. We appreciate you very much.
    Mr. Bolden. Mr. Chairman, thank you very much. And we will 
try to get the responses back to you in a timely manner.
    Chairman Hall. And just before I hit the gavel I want to 
recognize the gentleman from New York, the long-time chairman 
here, Chairman Boehlert. And with that, we are adjourned.
    [Whereupon, at 12:12 p.m., the Committee was adjourned.]


                              Appendix I:

                              ----------                              



                   Answers to Post-Hearing Questions

Responses by The Honorable Charles F. Bolden, Jr., Administrator, 
        National Aeronautics and Space Administration

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                              Appendix II:

                              ----------                              


                   Additional Material for the Record


          Prepared Statement of Representative Jerry Costello

    Thank you, Mr. Chairman, for holding today's hearing on the 
National Aeronautics and Space Administration's (NASA) Fiscal Year 2012 
(FY12) budget request.
    NASA's FYl2 budget provides $18.7 billion and follows the direction 
Congress laid out in the 2010 NASA Authorization bill. However, the 
administration's budget proposal raises several questions about NASA's 
mission and the future of human space flight.
    First, investing in Science, Technology, Engineering, and 
Mathematics (STEM) education programs is necessary to ensure the next 
generation of our aerospace workforce is competitive. For this reason, 
I applaud NASA's new focus on working with community colleges to 
prepare students for pursuing STEM education at four-year universities 
and building new skills for careers in aerospace. In addition, I am 
pleased NASA will continue its partnerships with schools to ensure 
students in 4th through 9th are exposed to STEM curricula.
    Second, I appreciate NASA's efforts to complete the development of 
a multi-purpose crew vehicle and space launch system. I am interested 
to hear from Administrator Bolden if 2016 is still a viable deadline 
for completing this work and how NASA will continue its work at a 
reduced funding level.
    Finally, NASA's aeronautics research program is vital to ensuring 
the safety and security ofthe flying public and the competitiveness of 
the aviation and aerospace industry. In particular, NASA's 
contributions to NextGen will play a critical role in increasing 
airspace capacity in the future. I am concerned about the $10.2 million 
reduction from the Fiscal Year 2011 request in aeronautics funding 
included in the FY12 request. This lower request will make it harder to 
recover from the $143 million reduction in funding for NextGen in 
Fiscal Year 2010. I am interested to hear from Administrator Bolden how 
this reduction will impact the ongoing work on NextGen and other 
aeronautics and aviation priorities.
    I welcome Administrator Bolden, and I look forward to his 
testimony. Thank you again, Mr. Chairman.

         Prepared Statement of Representative Randy Neugebauer

    Thank you, Mr. Chairman, for holding this full Committee hearing to 
examine the National Aeronautics and Space Administration's budget 
request for Fiscal Year 2012. Administrator Bolden, welcome.
    Since 1958, NASA has played an important role in American 
innovation and inventiveness. Much of the technological advancement in 
the United States over the last five decades can be attributed to the 
projects undertaken at NASA. I am confident that it will continue to 
develop valuable and cutting-edge technologies.
    I am, however, concerned that the Administration's budget for 
fiscal year 2012 does not adequately address our nation's current 
fiscal crisis. Americans are earning less, over nine percent of our 
population is unemployed, and families are struggling to find ways to 
make ends meet, yet federal government agencies are not feeling that 
same pain. Our country is on an unsustainable path of spending. We will 
not successfully decrease our $14 trillion debt by increasing spending 
or even maintaining current spending levels. It is imperative that the 
federal government make difficult choices to cut spending below current 
levels, and NASA is no exception. The Administration's proposed budget 
would maintain NASA funding at Fiscal Year 2010 levels, but I believe 
it must be reduced to 2008 levels.
    The cuts will not be pleasant, and they do not imply that NASA's 
work is not important or beneficial. I understand that NASA made some 
difficult choices to reduce funding for some programs in this budget 
proposal, while other programs would see an increase in funding. But 
without immediate, significant reductions in bottom-line spending, 
future generations will have difficulty even paying down the interest 
on our national debt.
    Administrator Bolden, look forward to hearing your testimony.

                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
